App. la
UNPUBLISHED
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
No. 18-1458
THOMAS F. SWEENEY,
Petitioner - Appellant,
v.
MERIT SYSTEMS PROTECTION BOARD,
Respondent - Appellee.

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Claude
M. Hilton, Senior District Judge. (l-17-cv00926CMH-IDD)
Argued: May 9, 2019

Decided: June 14, 2019

Before GREGORY, Chief Judge, and WYNN and
THACKER, Circuit Judges.
Affirmed by unpublished per curiam opinion.

App. 2a
ARGUED: William Paul Bray, OTEY SMITH &
QUARLES, Williamsburg, Virginia, for Appellant.
Dennis Carl Barghaan, Jr., OFFICE OF THE
UNITED STATES ATTORNEY, Alexandria, Virginia,
for Appellee. ON BRIEF: Matthew W. Smith, OTEY
SMITH & QUARLES, Williamsburg, Virginia, for
Appellant. G. Zachary Terwilliger, United States
Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Appellee.
Unpublished opinions are not binding precedent in
this circuit.

PER CURIAM:
Thomas F. Sweeney (“Appellant”) filed a “mixed
case” appeal with the Merit Systems Protection Board
(“Appellee” or “MSPB”), i.e., a discrimination claim
coupled with a challenge to a personnel action
decision. Specifically, Appellant alleged that the
(“FAA”)
Federal
Aviation
Administration
discriminated against him on the basis of gender and
improperly forced him to accept a reassignment that
resulted in a reduction in grade and pay.
The MSPB, however, concluded that it lacked
jurisdiction to entertain Appellant’s claims because
Appellant voluntarily accepted the reassignment.
Appellant then filed a complaint in the district court
seeking review only of the MSPB’s decision that it
lacked jurisdiction. The district court granted the

App. 3a
MSPB’s motion to dismiss the complaint. In this
appeal, Appellant argues that the district court erred
by^ (l) failing to convert MSPB’s motion to dismiss to
a motion for summary judgment; and (2) failing to
recognize that genuine issues of material fact remain
on the jurisdictional issue. As explained below, we
reject these arguments and affirm.
I.
A.
Factual Background
On August 5, 2009, Appellant began working
for the FAA as a developmental air traffic control
specialist (“ATCS”). A developmental ATCS must
successfully complete extensive training before
becoming a certified professional controller (“CPC”).
Pursuant to FAA policy, in order to remain employed
with the FAA as an air traffic controller, an individual
must satisfactorily complete the FAA’s training
program, become a CPC, and obtain “facility or area
certification” at the facility to which the individual is
assigned. J.A. 130.1 But, if a developmental ATCS
demonstrates an “[i] natality to successfully complete
an air traffic control training program,” FAA officials
may ask a training review board to make a
recommendation to the facility’s air traffic manager
whether to terminate that controller’s training
1 Citations to the “J.A.” refer to the Joint Appendix filed by the
parties in this appeal.

App. 4a
program. Id. at 129-30.
After completing an initial training period, in
December 2009 Appellant reported to the Washington
Air Route Traffic Control Center in Leesburg, Virginia
(the “Washington Center”). In December 2012, during
Appellant’s time at the Washington Center, FAA
officials identified deficiencies in his work
performance and placed him in an additional remedial
training program. They then suspended his training
on February 22, 2013. On April 11, 2013, a training
review board concluded that he was not likely to
obtain facility or area certification at the Washington
Center. The training review board recommended that
Appellant’s training be discontinued.
As a result, the Air Traffic Manager, Steven
Stooksberry, sent Appellant a memorandum titled
“Discontinuation of Training” dated April 15, 2013.
J.A. 67. Stooksberry wrote, “This memorandum is
notification that your training is being terminated due
to unsatisfactory performance ...” Id. The
memorandum informed Appellant of the training
review board’s recommendation, and Stooksberry’s
determination that Appellant “ha[d] been offered
every opportunity to succeed in the ATCS Training
Program and that [Appellant had] not demonstrated
that [he] possessed] the knowledge, skills, and
abilities required to safely perform the duties of a
CPC” at the Washington Center. Id. “Therefore,”
Stooksberry wrote, “it is my decision that your
training be discontinued.” Id. The memorandum also

App. 5a
provided Appellant with an opportunity to respond
within seven days, and noted that in the event
Appellant failed to respond, “the appropriate action
(position change or separation) shall be initiated.” Id.
On April 23, 2013, Appellant responded to
Stooksberry’s memo. Appellant’s response did not
challenge the discontinuation of Appellant’s training
at the Washington Center. Instead, Appellant
requested that the FAA “recommend [him] for
continued employment and placement at a lower level
FAA Air Traffic Control Facility.” J.A. 148. He added,
“I believe I can be a CPC at a different facility.” Id. On
May 13, 2013, Stooksberry sent Appellant a memo
stating, “[I]t is my final determination that your
training at [the Washington Center] be terminated.”
Id. at 104.
When an ATCS has been unsuccessful in
completing training at a particular facility, the FAA’s
National Employee Services Team recommends to
senior management whether to offer that ATCS
reassignment at a different facility. An ATCS who
accepts reassignment is provided with a “clean slate”
with respect to his training, and thus, he may reapply
for a position at a higher level facility in the future.
J.A. 131. But if the ATCS does not accept the
reassignment, the FAA may “initiate proper
separation activities,” id.', i.e., propose the individual’s
removal from federal service. However, the individual
has an opportunity to respond to the removal
determination before the FAA issues a final

App. 6a
employment decision.
Pursuant to this policy,
in another
memorandum dated November 29, 2013 (the
“Reassignment Memo”), the FAA offered to reassign
Appellant to a position as an air traffic control
specialist at Harrisburg International Airport, a
lower-level facility. The Reassignment Memo stated
that the reassignment would be at Appellant’s own
expense, and that if he “decline [d] . . . this offer, there
is no assurance that any other offer will be
forthcoming.” J.A. 64. Additionally, the Reassignment
Memo stated that if Appellant did “not accept this
reassignment” to Harrisburg, his “removal from [his]
ATCS position and from the Federal Service will be
proposed.” Id. at 65. Finally, the Reassignment Memo
stated^ “I fully understand this process and consider it
to be for my personal benefit and . . . the Agency has
not exercised any pressure on me.” Id. Appellant
accepted all of the terms of the Reassignment Memo
by signing it on December 3, 2013. Appellant then
transferred from the Washington Center to the
Harrisburg International Airport, where he remained
employed as an ATCS when this case was filed in
district court.
B.
Procedural History
1.
Appellant’s FAA Complaint

App. 7a
Appellant, proceeding pro se, filed a complaint
with the FAA alleging that the termination of his
training and his subsequent transfer were the result
of unlawful gender discrimination. See 29 C.F.R. §
1614.302(a)(1). The FAA was then obligated to
investigate Appellant’s allegations of employment
discrimination and issue a final agency decision
(“FAD”). See id. § 1614.302(d); see also id. §
1614.101-110.
On July 28, 2014, the FAA completed its
investigation
of Appellant’s
complaint
and
subsequently issued its FAD. The FAD concluded that
Appellant had established a prima facie case of gender
discrimination, but that he failed to produce sufficient
evidence of pretext; thus, the agency made an overall
finding of no discrimination.
2.
MSPB Proceedings
Appellant, still pro se, filed a mixed case appeal
with the MSPB on October 15, 2014, which, in
addition to review of his discrimination allegations,
sought review of the FAA’s termination of his training
and subsequent transfer to Harrisburg.
On October 23, 2014, an MSPB Administrative
Judge (“AJ”) issued an order to show cause requiring
Appellant to address whether the MSPB could
exercise jurisdiction over his case. The AJ explained
that “[t]he [MSPB] does not have jurisdiction over all
actions that are alleged to be incorrect but only those

App. 8a
actions in which jurisdiction is provided by pertinent
statutes and regulations,” and “[i]t is the appellant’s
burden to establish that the [MSPB] has jurisdiction
over this appeal.” J.A. 31.
On November 2, 2014, Appellant responded to
the order and asserted that the Harrisburg
reassignment resulted in a reduction in grade and
pay, and he explained that the Reassignment Memo
“stated if I did not accept the offer of assignment
[to Harrisburg], my involuntary removal from my
ATCS position and Federal Service will be proposed.”
J.A. 44 (emphasis supplied). On December 4, 2014, the
AJ issued a supplemental order to show cause that
“afford [ed] him another opportunity to submit
evidence and argument to show cause why this appeal
should not be dismissed.” Id. At 52. This order advised
Appellant that although the MSPB typically
possessed jurisdiction over reassignments that were
accompanied by a reduction in grade and/or pay,
reassignment must have been “involuntary” for
jurisdiction to attach. Id. at 53. The order informed
Appellant that it was “incumbent on [him] to establish
that his acceptance of the agency’s offer rendered the
assignment . . . involuntary because it was the result
of duress, coercion, or misrepresentation by the
agency.” Id. at 54—55. In his response, filed December
14, 2014, Appellant noted that “[i]t is obvious that if I
did not accept my reassignment I would have been
removed from service.” Id. at 61.
On April 12, 2016, the AJ issued her decision,

App. 9a
concluding that the MSPB lacked jurisdiction to
consider Appellant’s case. Specifically, the AJ held
that the MSPB could not exercise jurisdiction over
Appellant’s reassignment to Harrisburg because there
was no evidence that in agreeing to the reassignment,
Appellant was deprived of the “freedom of choice.” J.A.
170. The AJ noted that Appellant “accepted the
reassignment,” and the FAA’s explanation that his
removal from employment would be proposed if he
declined the reassignment did not render that
assignment involuntary:
[T]he fact remains that [Appellant] had an
option in that he could have declined
[reassignment] and then challenged the
removal action. The fact that he accepted
the reassignment in lieu of removal does not
make his reassignment involuntary because
he had the option to face removal and
exercise his appeal rights to the E[qual]
EEmployment] Opportunity] Ctommission]
and/or the MSPB. While this is admittedly
an unpleasant choice to face, it is well
established that the fact that an employee is
faced with unpleasant alternatives does not
in and of itself render the situation
improperly coercive.
Id. at 171.
Appellant filed a petition for review of the AJ’s
decision with the full MSPB. On September 23, 2016,
the MSPB issued a final order that affirmed the AJ’s

App. 10a
decision, explaining that it lacked jurisdiction over
Appellant’s reassignment to Harrisburg because “[a]
choice between unpleasant alternatives does not
render a decision to accept the agency’s proposal
involuntary.” J.A. 211.2
3.
District Court Proceedings
Appellant filed a petition for review of the
MSPB’s final order in the Federal Circuit. However,
as a result of the Supreme Court’s intervening
decision in Perry v. MSPB, 137 S. Ct. 1975 (2017)
(holding that if the MSPB dismisses a mixed case on
jurisdictional grounds, the district court, not the
Federal Circuit, is the proper forum for judicial
review), Appellant’s petition was transferred to the
United States District Court for the Eastern District
of Virginia.
The district court ordered Appellant to file a
formal complaint, and he did so on December 18, 2017.
Although Appellant premised the district court’s
jurisdiction in part on Title VII of the Civil Rights Act
of 1964, the complaint did not present a cause of action

2 Both the AJ and the MSPB rejected Appellant’s argument that
the May 13, 2013 termination of his training violated due
process, and that termination was an adverse action over which
the MSPB possessed jurisdiction. See J.A. 168, 211-13. Although
not specifically raised in this appeal, we agree with the AJ and
MSPB that, absent circumstances not present in this case, denial
of training is not within the MSPB’s jurisdiction. See 5 C.F.R. §
1201.3(a).

App. 11a
under Title VII or otherwise seek the district court’s
adjudication of his gender discrimination allegations.
The complaint only sought judicial review of the
MSPB’s conclusion that it lacked jurisdiction to
entertain his mixed case.
On February 5, 2018, the MSPB moved to
dismiss
the
complaint
and
attached
the
Administrative Record from the MSPB proceedings.
The MSPB also provided Appellant with notice that
its motion was dispositive and informed him of his
right to file a response to the motion. However,
Appellant did not file a response.
On March 13, 2018, the district court granted
the MSPB’s motion and dismissed the complaint. In
doing so, the district court concluded that the MSPB
lacked jurisdiction to consider any employment
decision that involved any “voluntary action by the
employee,” J.A. 290 (quoting 5 C.F.R. § 752.401(b)(9)),
and that the MSPB had correctly concluded that
Appellant’s reassignment to Harrisburg was such a
voluntary action.
On April 6, 2018, Appellant filed a motion for
reconsideration of the district court’s dismissal order.
Appellant asserted that he had not filed a response to
the MSPB’s motion to dismiss because the legal
argument that he would have articulated in such a
response was already set forth in his complaint;
accordingly, his response “would have been a ‘cut and
paste’ [which would] be irrelevant and a waste of this
Court’s time.” J.A. 294. Appellant challenged neither

App. 12a
the accuracy of the Administrative Record, nor the
district court’s use of the Administrative Record in
resolving the MSPB’s motion to dismiss. The district
court denied Appellant’s motion for reconsideration,
and this appeal followed.
We possess jurisdiction pursuant to 28 U.S.C. §
1291, and we review the grant of a motion to dismiss
de novo. See ACA Fin. Guar. Corp. v. City of Buena
Vista, 917 F.3d 206, 211 (4th Cir. 2019).
II.
A.
Failure to Convert to Summary Judgment Motion
Appellant first contends that the district court
erred by failing to convert MSPB’s motion to dismiss
into a motion for summary judgment. Specifically, he
claims the district court was required to do so under
Federal Rule of Civil Procedure 12(d) when it
reviewed material outside the pleadings, namely, the
MSPB Administrative Record.3
Even if the district court erred in this regard,
“[a] district court’s failure to comply with the
procedural safeguards of Rule 12(d) does not
constitute reversible error if it did not prejudice the

3 Rule 12(d) provides, “If, on a motion under Rule 12(b)(6) or
12(c), matters outside the pleadings are presented to and not
excluded by the court, the motion must be treated as one for
summary judgment under Rule 56. All parties must be given a
reasonable opportunity to present all the material that is
pertinent to the motion.” Fed. R. Civ. Proc. 12(d).

App. 13a
parties.” Russell v. Harman Inti Indus., Inc., 773 F.3d
253, 255 (D.C. Cir. 2014) (emphasis in original).
For his part, Appellant asserts four reasons
that the error was not harmless^
(l) “Rule 12(d) requires that [Appellant] be
given a reasonable opportunity to submit
‘all the material that is relevant to the
motion’ of which he was deprived”;
(2) “Rule 56(c) and (e) afford [Appellant]
important protections by requiring the
moving party to clearly identify the basis
for summary judgment and the materials
in the record supporting such a motion”;
(3) “Rule 56(d) protects [Appellant] from
summary judgment based on facts not
available to him at the time the motion is
considered”; and
(4) “[T]he district court’s own Local Rules
contain requirements for summary
judgment motions that enhance the
protections of Rule 56. [Appellant] was
afforded none of these protections in the
proceedings below.”
Appellant’s Br. 3 (citation omitted). None of these
arguments demonstrate that Appellant was
prejudiced by the district court treating the MSPB’s
motion as one to dismiss rather than one for summary
judgment.

App. 14a
As to his first argument, Appellant was not
deprived of a reasonable opportunity to submit “all the
material that is relevant to the motion” for two
reasons. Appellant’s Br. 3. First, Appellant would not
have been permitted to introduce additional material
in any event because the jurisdictional claim was
governed solely by the Administrative Record. See
Rana v. United States, 812 F.2d 887, 888-89 n.l (4th
Cir. 1987); Rockwell v. Dep’tofTransp., 789 F.2d 908,
913 (Fed. Cir. 1986) (per curiam). Second, to the
extent Appellant wished to argue that there were
genuine disputes of material fact precluding summary
judgment (or any other argument, for that matter), he
had an opportunity to do so - by filing a response to
the motion. He elected not to. And, of note, Appellant
does not assert that he was unaware of his right to file
a response. To the contrary, Appellant states that he
chose not to file a response because any argument that
he would have presented was already in his
complaint.
As for Appellant’s second and fourth
arguments, he asserts that the district court’s failure
to convert the motion prejudiced him because he was
deprived of various procedural benefits under Rule 56
and the district court’s own local rules. See Appellant’s
Br. 3, 8-10. But Appellant fails to demonstrate how
this prejudiced him. Significantly, Appellant does not
allege that the district court’s strict compliance with
all applicable rules would have changed Appellant’s
behavior in any way. And, even on appeal with the

App. 15a
benefit of counsel, Appellant fails to identify any
material dispute of fact that would have precluded
summary judgment. Instead, he attempts to rehash
the facts underlying his gender discrimination claim,
which he abandoned in the district court. Finally, a
district court’s alleged failure to comply with its own
local rules is not a basis for reversal by an appellate
court, particularly where Appellant has not identified
any basis for prejudice.
As to Appellant’s third argument, the MSPB
attached the Administrative Record to its motion;
therefore, the motion was not granted “based on facts
not available to [Appellant] at the time the motion
[was] considered.” Appellant’s Br. 3. Indeed,
Appellant does not identify what those facts might be
and did not challenge the use of the Administrative
Record in district court.
To be sure, Appellant was a pro se litigant, and
as a result, the district court must read the pleadings
liberally in his favor. See Kerr v. Marshall Univ. Bd.
of Governors, 824 F.3d 62, 72 (4th Cir. 2016). But the
court cannot prosecute Appellant’s claim for him.
Where Appellant (l) declined to file a response to the
motion to dismiss or challenge the district court’s
consideration of the Administrative Record; (2) does
not allege that strict compliance with the summary
judgment procedural requirements would have
changed his decision not to respond to the motion; and
(3) cannot, even with the benefit of appellate counsel,
point to particular disputed facts that would have

App. 16a
precluded summary judgment, we cannot conclude
Appellant was prejudiced by any error on the district
court’s part, regardless of his pro se status.
For these reasons, assuming the district court
should have converted the motion to dismiss to one for
summary judgment, any error was harmless.
B.
Genuine Issues of Material Fact
We next address whether the MSPB was
correct in deciding as a matter of law that Appellant’s
reassignment was a product of Appellant’s voluntary
choice, thereby depriving it of jurisdiction. Appellant
contends this was improper because genuine issues of
material fact remain on this issue.
1.
The MSPB’s Jurisdiction
The MSPB has jurisdiction to adjudicate
challenges to certain adverse employment actions
taken by a federal agency against its employees. See 5
U.S.C. § 7701(a); Garcia v. Dep’t of Homeland Sec.,
437 F.3d 1322, 1327 (Fed. Cir. 2006) (enbanc). As
elevant here, when a federal employee suffers an
employment action that he or she believes to be
unwarranted, and that the MSPB has jurisdiction to
review, the employee can challenge the action through
an “appeal” to the MSPB.
The MSPB possesses jurisdiction to consider

App. 17a
“any action which is appealable to the [MSPB] under
any law, rule or regulation.” 5 U.S.C. § 7701(a).
However, “[t]he jurisdiction of the MSPB is not
plenary, but is limited to those areas specifically
granted by statute or regulation. ... In other words,
jurisdiction for the [MSPB] to hear a particular type
of action must be granted by some law, rule or
regulation.” Garcia, 437 F.3d at 1327 (quoting Antolin
v. Dep’t of Justice, 895 F.2d 1395, 1396 (Fed. Cir.
1989) (internal quotation marks omitted)).
Pursuant to 5 U.S.C. § 7513(d), the MSPB has
jurisdiction to hear appeals over certain enumerated
adverse actions taken by an agency against an
employee. The enumerated adverse actions are^ (l) a
removal; (2) a suspension for more than 14 days; (3) a
reduction in grade; (4) a reduction in pay; and (5) a
furlough of 30 days or less. See 5 U.S.C. § 7512.
However, the MSPB does not have jurisdiction
to review voluntary actions by the employee. See 5
C.F.R. § 752.401(b)(9); Garcia, 437 F.3d at 1328
(“Nothing in 5 U.S.C. § 7512, which enumerates
specific adverse actions over which the [MSPB] has
jurisdiction, extends the [MSPB’s] jurisdiction to
facially voluntary acts.”). Accordingly, an employee
who voluntarily accepts a reduction in grade or pay
(which are otherwise reviewable adverse actions) has
no right to appeal to the MSPB. See id. There is an
exception to this general rule, however, “if the
employee proves, by a preponderance of the evidence,
that his or her action was involuntary and thus

App. 18a
tantamount to a forced enumerated adverse action.”
Id. at 1329 (alterations and internal quotation
marks omitted).
2.
Voluntary Action
To establish that a seemingly voluntary action
was nonetheless involuntary, an employee must show
by a preponderance of the evidence that (l) the agency
“effectively imposed” the terms of the action! (2) the
employee “had no realistic alternative” but to take the
action! and (3) the action was “the result of improper
acts by the agency.” Garcia, 437 F.3d at 1329 (internal
quotation marks omitted). The test is an objective one
that is based on the totality of the circumstances, and
the “employee must establish that a reasonable
employee confronted with the same circumstances
would feel coerced into” taking the action. Id. (internal
quotation marks omitted).
We conclude the district court was correct in
deciding that Appellant cannot meet this standard.
Although Appellant had to choose between the
unattractive options of participating in termination
proceedings or being reassigned to Harrisburg, he was
still presented with a choice. Both the Federal Circuit
and the MSPB have repeatedly held that “the fact that
an employee is faced with an unpleasant situation or
that his choice is limited to two unattractive options
does not make the employee’s decision any less
voluntary.” Staats v. U.S. Postal Serv., 99 F.3d 1120,

App. 19a
1124 (Fed. Cir. 1996); see also Gaudette v. Dep’t of
Trans., 832 F.2d 1256, 1259 (Fed. Cir. 1987)
(concluding an air traffic controller’s reassignment
was voluntary in similar circumstances, explaining
the fact that “the employee would prefer to stay in the
position from which he or she faces possible removal
and dislikes taking a pay-cut does not make their
decision to accept the offer of a lower-grade position
legally involuntary”); Loggins v. U.S. PostalServ., 112
M.S.P.R. 471, 476 (2009) (“An employee’s acceptance
of a lower-graded position is generally considered to
be voluntary and not subject to the Board’s
jurisdiction.”); Reed v. U.S. Postal Serv., 99 M.S.P.R.
453, 460 (2005) (same), affd, 198 F. App’x 966 (Fed.
Cir. 2006). Similarly, the Federal Circuit has held that
a federal employee who, like here, accepts
reassignment to a lesser position in lieu of facing
proposed removal cannot demonstrate that the
reassignment is “involuntary” so as to vest the MSPB
with jurisdiction. See Daniel v. MSPB, 534 F. App’x
937, 941 (Fed. Cir. 2013). Accordingly, Appellant has
not shown that the FAA effectively imposed the
Harrisburg reassignment on him or that he had no
realistic alternative (as opposed to no attractive
alternative) other than to accept the reassignment.
Nor did the reassignment result from improper
acts by the FAA. Indeed, Appellant signed the
Reassignment Memo, which stated, “I fully
understand this process and consider it to be for my
personal benefit and . . . the Agency has not exercised

App. 20a
any pressure on me.” J.A. 65. The district court
correctly determined that Appellant’s reassignment
was voluntary as a matter of law, and thus, the MSPB
properly dismissed Appellant’s case for lack of
jurisdiction.
III.
For the foregoing reasons, we affirm the district
court.
AFFIRMED

App. 21a
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
THOMAS F. SWEENEY, )
)

Petitioner ,
v.

)
)

)
MERIT SYSTEMS
)
PROTECTION BOARD, )

Civil Action No.
1:17 -cv-926

)

Respondent.

)

ORDER
THIS MATTER comes before the Court on
Petitioner's Motion for Reconsideration of the March
13th, 2018 Order granting Respondent ' s Motion to
Dismiss. The Court is of the opinion that the March
13 Order was correct for the reasons stated.
Accordingly , it is here by
ORDERED that Petitioner's Motion for
Reconsideration is DENIED.

Alexandria , Virginia
April 24 . 2018

/s/ CLAUDE M. HILTON
CLAUDE M. HILTON
UNITED STATES
DISTRICT JUDGE

App. 22a
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

THOMAS F.
SWEENEY,

)
)
)

Petitioner,

)

) Civil Action No .
v.

) T17-CV-926
)

)
MERIT SYSTEMS
PROTECTION BOARD ,)
)

Respondent.

)

ORDER
THIS MATTER comes before the Court on
Defendant's Motion to Dismiss Plaintiff s Complaint.
Plaintiff Thomas Sweeney here seeks judicial review
of a final decision issued by the Merit Systems
Protection Board ("MSPB"). Plaintiff , an air traffic
controller employed by the Federal Aviation
Administration ("FAA"), filed this suit after the FAA
discontinued his developmental training due to
repeated difficulties he was experiencing and after he

App. 23a
accepted a reassignment offer to a lower-level facility
resulting in a pay grad e reduction .
Plaintiff initially filed a formal administrative
complaint of discrimination with the FAA, alleging
that the discontinuation of his training program and
his transfer were the result of unlawfu 1 gender
discrimination. The FAA issued a Final Agency
Decision finding that Plaintiff had not been the victim
of unlawful discrimination . Plaintiff then filed an
appeal with the MSPB seeking both generic review of
his reassignment a .d accompanying pay reduction as
well as review of his allegations of gender
discrimination under Title VII of the Civil Rights Act
of 1964. Plaintiff later sought leave of the MSPB to
amend his appeal to include an allegation that the
FAA had terminated his air traffic control training in
violation of his constitutional due process rights
because the FAA officials did not follow usual training
procedures in doing so.
The MSPB Administrative Judge (" AJ")
ultimately decided that the MSPB lacked jurisdiction
to entertain Plaintiff ' s appeal. The AJ held that the
MSPB could not exercise jurisdiction over a voluntary
employee decision such as Plaintiffs reassignment.
The AJ found that Plaintiff had voluntarily agreed to
the reassignment, and there was no evidence that he
was deprived of freedom of choice.
Plaintiff then filed a petition for review by the full
MSPB , which resulted in a final order that affirmed
the initial decision by the AJ. The MSPB held that

App. 24a
Plaintiffs reassignment was not rendered involuntary
simply because he was not provided the option to
remain at his former duty station. The MSPB also
addressed Plaintiffs belated due process claim,
holding that it lacked jurisdiction to consider
allegations related to the agency 's decision to
terminate his training, and further that his due
process claims were without merit because he was not
deprived of a constitutionally -viable property
interest and was afforded an opportunity to tender a
written
response
to the FAA' s proposal to
discontinue his training.
Plaintiff filed a petition for review with the Court
of Appeals for the Federal Circuit, but due to the
intervening decision by the U.S. Supreme Court in
Perry v. Merit Systems Protection Board. 137 S. Ct.
1975 (2017), which changed the appropriate
jurisdiction for this type of appeal, the case was
transferred to this Court on August 16, 2017 .
Defendant filed this Motion to Dismiss along with a
Roseboro notice on February 5, 2018 , and Plaintiff
failed to timely file any opposition.
The single issue for this Court to review is
whether the MSPB correctly held that its statutory
and regulatory charter precluded it from exercising
jurisdiction over plaintiffs allegations . "The
jurisdiction of the MSP B is not plenary." Maddox v.
Merit Svs. Prat . Bd., 759 F.2d 9, 10 (Fed. Cir. 1985).
Although the MSPB generally possesses jurisdiction
to adjudicate adverse employment actions such as

App. 25a
"[r]emovals [and) reductions in grade or pay," 5 C.F.R.
§ 1201.3(a)(1), there are a number of exceptions to this
grant of jurisdiction, including any "voluntary action
by an employee," id. § 752.401 (b)(9). Thus even
where an employee experiences what would otherwise
be a reviewable adverse employment action , the
MSPB lacks jurisdiction to consider it if it was the
result of a voluntary action by the employee. See, e.g.,
Staats v. O.S. Posta 1 Serv., 99 F.3d 1120, 1123-24
(Fed. Cir. 1996).
As noted by the MSPB , Plaintiff voluntarily
accepted the FAA' s proposed reassignment and its
accompanying pay grade reduction , and therefore the
reassignment was not an adverse employment action.
Despite Plaintiffs assertion that he was deprived of
free choice because his only other alternative was to
fight his potential removal from federal employment,
Federal Circuit precedent has established that this
alone does not render an employment action
involuntary. See Staats. 99 F.3d at 1124 ("[T]he fact
that an employee is faced with an unpleasant
situation or that his choice is limited to two
unattractive options does not make the employee's
decision any less voluntary ."); see also Gaudette v.
Den1 t of Transn., 832 F.2d 1256 (Fed. Cir. 1987)
(rejecting Plaintiffs exact argument in similar case).
The MSPB also correctly held that it did not
possess jurisdiction to review Plaintiffs due process
challenge to the FAA's discontinuance of his training
program. As the MSPB recognized, its statutory and

App. 26a
regulatory authority does not include "jurisdiction
over an agency ' s decision to terminate an employee's
training . [or] the agency's rules and procedures for
required training and the process and the
implementation of those procedures." For the
foregoing reasons, it is hereby
ORDERED that the Defendant' s Motion to
Dismiss is GRANTED, and this case is DISMISSED.

Is/ Claude M. Hilton
CLAUDE M. HILTON
UNITED STATES
DISTRICT JUDGE
Alexandria, Virginia
March 13, 2018

App. 27a
NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
THOMAS F. SWEENEY,
Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD,
Respondent
2017-1255
Petition for review of the Merit Systems
Protection Board in No. DC-0752-15-0060-1-1.
Before LOURIE, MOORE, and O’MALLEY,
Circuit Judges.
PER CURIAM.
ORDER
Thomas F. Sweeney (“Sweeney”) petitions for
review of the final order of the Merit Systems
Protection Board (“the Board”) dismissing his appeal
for lack of jurisdiction. See Sweeney v. Dep’t. of
Transp., No. DC-0752-15-0060-1- 1, 2016 WL 5366354
(M.S.P.B. Sept. 23, 2016) (“Final Ordef’)', see also
Resp’t’s App. (“R.A.”) 1—10. Because we lack
jurisdiction over Sweeney’s appeal, we transfer it to

App. 28a
the United States District Court for the Eastern
District of Virginia.

BACKGROUND
Sweeney was employed as a Developmental Air
Traffic Control Specialist (“ATCS”) with the Federal
Aviation Administration (“the Agency”) at the
Washington Air Route Traffic Control Center
(“ARTCC”). Final Order, 2016 WL 5366354, f 2. In
December 2012, Sweeney was placed in a training
program after the Agency identified deficiencies in his
work performance. Id. The Agency then suspended his
training on February 22, 2013. Id. The Agency’s
training review board (“TRB”) met on April 11, 2013
and determined that Sweeney’s performance had not
improved and that he was unable to obtain the
certification necessary to perform his specific position.
Id. Thus, the TRB recommended that Sweeney be
reassigned to a lower-level facility. Id.
On April 15, 2013, the Agency notified Sweeney
that his training would be discontinued because of his
unsatisfactory performance in the training program,
and that he was entitled to provide written comments
relating to the proposed action. Id. If 3. Sweeney filed
a response and on May 13, 2013, the Agency made a
final determination terminating Sweeney’s training at
ARTCC. Id. Sweeney subsequently filed a request for
reconsideration, which was denied by the Agency. Id.
Consistent with the TRB recommendation, the Agency
offered Sweeney a list of facilities that he could be

App. 29a
reassigned to, including one in Harrisburg,
Pennsylvania. Id. In a memorandum dated November
29, 2013, Sweeney was offered the assignment to the
Harrisburg facility effective December 1, 2013. Id.
Sweeney was informed that if he declined the Agency’s
offer to be reassigned to a lower-level facility, his
removal from his current ATCS position and from the
Federal service would be proposed. Id. Sweeney
accepted the reassignment and was reassigned to the
Harrisburg facility. Id.
Sweeney then filed a discrimination complaint
with the Agency, arguing, inter alia, that he was
unlawfully discriminated against when the Agency
terminated his training, subsequently transferred
him to a lower-level facility, and reassigned him to a
downgraded position. Id. The Agency determined that
no discrimination had occurred. Id.
Sweeney then appealed to the MSPB, alleging
a re- duction in grade and pay, as well as a denial of a
within- grade increase (“WIGI”). Id. f 5. Sweeney also
claimed that (l) the Agency’s training program was
deficient; (2) the Agency’s actions resulted from
discrimination! and (3) the Agency’s decision to
discontinue his training was essentially a constructive
removal. Id.
The MSPB administrative judge (“AJ”) issued
two separate Show Cause Orders, instructing
Sweeney to submit evidence and argument
establishing that his claims fell within the Board’s
jurisdiction. Id. Tf 6. The AJ issued an initial decision

App. 30a

v

dismissing the appeal for lack of jurisdiction,
concluding that Sweeney did not make any
nonfrivolous allegations of facts that, if proven, would
establish the Board’s jurisdiction over his appeal. Id.
Sweeney filed a petition for review by the full
Board, and the full Board affirmed. First, the Board
determined that the termination of Sweeney’s
training was not a performance-based action under 5
U.S.C. § 4303, over which the Board had jurisdiction.
Id. If 7. The Board also rejected Sweeney’s argument
that his reassignment resulted in a reduction in grade
and pay. Specifically, the Board determined that there
was no evidence that Sweeney’s grade and pay were
reduced, and that even if there were such evidence,
Sweeney had voluntarily accepted his reassignment in
lieu of removal. Id. If 8. The Board reasoned that “[a]
choice between unpleasant alternatives does not
render a decision to accept the agency’s proposal
involuntary.” Id. If 9 (citing Soler-Minardo v. Dep’t of
Del, 92 M.S.P.R. 100, 1f 9 (2002); see also Garcia v.
Dep’t ofHomeland Sec., 437 F.3d 1322, 1328 (Fed. Cir.
2006) (en banc); Gaudette v. Dep’t of Transp., 832 F.2d
1256, 1258 (Fed. Cir. 1987). Therefore, the Board
reasoned, Sweeney did not nonfrivolously allege an
appealable grade and pay reduction. Id.
The Board also rejected Sweeney’s argument,
which was presented to but not addressed by the AJ,
that the Agency had violated his due process rights.
Sweeney argued that his rights were violated because,
inter alia, TRB’s recommendation that his training be

App. 31a
terminated was a de facto decision notice to which he
did not have an 'opportunity to respond because,
Sweeney alleged, the decision to terminate his
training had already been made. Id. f 12. The Board
determined that because the decision to terminate
Sweeney’s training was not an appealable adverse
action, it did not have jurisdiction over Sweeney’s
allegations. Id.}[ 14.
The Board also determined that even if it had
juris- diction, there was no merit to Sweeney’s due
process argument. The Board noted that the TRB did
not propose or recommend discipline at all. Id. If 14.
Instead, the Air Traffic Manager, not the TRB, made
the final decision to terminate Sweeney’s training, and
the Air Traffic Manager specifically noted that he
considered Sweeney’s reply in reaching his decision.
Id.
Thus, the Board affirmed the AJ’s decision
dismissing the appeal for lack of jurisdiction.
Sweeney timely appealed from the Board’s final
order, attempting to invoke our jurisdiction pursuant
to 28 U.S.C. § 1295(a)(9).
DISCUSSION
Before we can reach the merits of Sweeney’s
appeal, we must first ensure that we have
jurisdiction. Halo Elecs., Inc. v. Pulse Elecs., Inc., 857
F.3d 1347, 1350 n.l (Fed. Cir. 2017).
Because Sweeney raises claims relating to both
dis- crimination and an adverse employment action,
this is a “mixed case.” See Perry v. Merit Sys. Prot.

App. 32a
Bd, 137 S. Ct. 1975, 1979 (2017). If the Board
dismisses a mixed case on the merits or on procedural
grounds, then that decision may only be reviewed in a
district court, not this court. Id. Before Perry, we had
held that we had jurisdiction to review appeals only
from the Board’s dismissal of a mixed case for lack of
jurisdiction. See Conforto v. Merit Sys. Prot. Bd., 713
F.3d 1111, 1117-19 (Fed. Cir. 2013). Perry, however,
superseded Conforto by holding that mixed cases
dismissed on jurisdictional grounds must also be
reviewed in district court. 137 S. Ct. at 1979.
Briefing was completed in this appeal before
Perry was decided, and so, at that time, Conforto
justified our jurisdiction. After Perry, we issued an
order asking the parties to address whether Perry
required transfer and, if so, to which district court this
appeal should be transferred.
The government responded that if Sweeney did
not waive his discrimination claims, Perry required
that this appeal be transferred to a district court. The
government suggested that the appeal be transferred
to the United States District Court for the District of
Maryland, where Sweeney currently resides.
Sweeney did not waive his discrimination
claims. In- stead, he moved to bifurcate his claims. He
asks that the discrimination claims be transferred to
the United States District Court for the Eastern
District of Virginia because the acts giving rise to his
claims occurred in Loudoun County, Virginia, and that
his other claims remain before this court. The

App. 33a
government responded that bifurcation is not
permitted in mixed cases, citing Williams v.
Department of the Army, 715 F.2d 1485, 1490—91
(Fed. Cir. 1983) (en banc).
We agree with the government that Williams
specifically precludes bifurcation of a mixed case. In
that case, we held that the language of the statute and
related statutes, the legislative history, the relevant
policy considerations, and the interests of the litigants
indicated that bifurcation of claims in a mixed case
was not proper. Id. Thus, Sweeney’s motion to
bifurcate his claims is denied.
As Sweeney has not waived his discrimination
claims, we also agree with the government that this
appeal must be transferred to a district court. We may
transfer the appeal to any court in which the “appeal
could have been brought at the time it was filed or
noticed.” 28 U.S.C. § 1631. Under the relevant venue
provisions, Sweeney’s action could have been brought
in, inter alia, “a judicial district in which a substantial
part of the events or omissions giving rise to the claim
occurred.” Id. § 1391(b)(2). As the events giving rise to
Sweeney’s claims occurred in Loudoun County,
Virginia, which is within the Eastern District of
Virginia, we determine that this appeal should be
transferred to that district.
Accordingly,
IT IS ORDERED THAT:
(l) Sweeney’s Motion for Bifurcation is denied.

App. 34a
(2) This appeal be transferred to the United
States District Court for the Eastern
District of Virginia.

For the Court
August 16. 2017
Date

i

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 35a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
THOMAS F.
SWEENEY,
Appellant,

DOCKET NUMBER
DC-0752-15-0060-1-1

J

v.

DATE: September 23, 2016
DEPARTMENT OF
TRANSPORTATION,
Agency.

THIS FINAL ORDER IS NONPRECEDENTIAL4
Thomas F. Sweeney, Frederick, Maryland, pro se.
Michael Doherty. Esquire, Washington, D.C., for the
agency
BEFORE
Susan Tsui Grundmann, Chairman
Mark A. Robbins, Member
4A nonprecedential order is one that the Board has determined
does not add significantly to the body of MSPB case law. Parties
may cite nonprecedential orders, but such orders have no
precedential value; the Board and administrative judges are not
required to follow or distinguish them in any future decisions. In
contrast, a precedential decision issued as an Opinion and Order
has been identified by the Board as significantly contributing to
the Board’s case law. See 5 C.F.R. § 1201.117(c).

App. 36a

FINAL ORDER
f1
The appellant has filed a petition for review of
the initial decision, which dismissed his appeal for
lack of jurisdiction. Generally, we grant petitions such
as this one only when: the initial decision contains
erroneous findings of material fact; the initial decision
is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to
the facts of the case; the administrative judge’s rulings
during either the course of the appeal or the initial
decision were not consistent with required procedures
or involved an abuse of discretion, and the resulting
error affected the outcome of the case; or new and
material evidence or legal argument is available that,
despite the petitioner’s due diligence, was not
available when the record closed. Title 5 of the Code
of Federal Regulations, section 1201.115 (5 C.F.R. §
1201.115). After fully considering the filings in this
appeal, we conclude that the petitioner has not
established any basis under section 1201.115 for
granting the petition for review. Therefore, we DENY
the petition for review. Except as expressly
MODIFIED by this Final Order to address the
appellant’s due process allegations, we AFFIRM the
initial decision.

BACKGROUND
If 2 The
appellant was
employed as
a
Developmental Air Traffic Control Specialist (ATCS)

App. 37a
at the agency’s Washington Air Route Traffic Control
Center (ARTCC). The agency’s training review board
(TRB) met on December 6‘7, 2012, to evaluate the
training of several employees, including the appellant.
Initial Appeal File (IAF), Tab 18, Exhibit (Ex.) 0.
Although training deficiencies were identified for the
appellant, the TRB decided to continue his training
but with specific training recommendations to address
his performance issues. Id. The appellant’s training
was subsequently suspended on February 22, 2013,
resulting in another TRB meeting on April 11, 2013.
Id., Ex. P. The TRB determined that the appellant’s
deficiencies had not been resolved by the additional
training and that he could not achieve the necessary
certification, and thus, it recommended that his
training be discontinued. However, the TRB further
recommended that the appellant “be given strong
consideration for reassignment to a lower level facility,
as per agency directives.” Id.
•If 3
The agency notified the appellant in a
memorandum dated April 15, 2013, that his training
was being terminated due to unsatisfactory
performance in Radar Controller Training, Stage IV.
IAF, Tab 16, Ex. D. The memorandum advised the
appellant that, in accordance with the Employment
Policy for Air Traffic Control Specialist in Training—
EMP-1.14—he could discuss the matter with the
Support Manager for Training and, within 7 calendar
days from receipt of notification, he could provide
written comments regarding the proposed action. Id.',

App. 38a
IAF, Tab 15, Ex. G. The appellant filed a response, and
the agency issued a final determination on May 13,
2013, terminating his training at ARTCC. The
appellant submitted a request for reconsideration,
which the
agency denied, noting that all TRB
members had concurred with the decision to suspend
his training. IAF, Tab 15, Exs. K, M. The agency
subsequently offered the appellant reassignments to
Atlantic City, New Jersey; Allenton, Pennsylvania;
and Falmouth, Massachusetts. IAF, Tab 2 at 28. The
appellant’s regional National Air Traffic Controllers
Association was able to get a facility at Harrisburg,
Pennsylvania, added to the appellant’s list of options
and he accepted the offer to that location because it
was closer to his home. IAF, Tab 16, Ex. B. In a
memorandum dated November 29, 2013, the
appellant was offered an assignment to the
Harrisburg facility effective December 1, 2013. Id., Ex.
A. The appellant was advised that, if he declined the
agency’s offer of reassignment, his removal from the
ATCS position and from the Federal service would be
proposed. Id. The appellant accepted the assignment,
and he was reassigned to the Harrisburg facility. Id.
The appellant filed a discrimination complaint
with the agency, alleging that he was discriminated
against based on his sex because his training was not
conducted in accordance with Federal Aviation
Administration (FAA) orders and procedures and
because the agency terminated his training,
transferred him to a lower-level facility, and

App. 39a
reassigned him to a downgraded position. IAF, Tab 2
at 3. The agency issued a final agency decision in
which it determined that no discrimination had
resulted. Id. at 36.
15
The appellant filed this appeal, alleging a
reduction in grade and pay and a denial of a withingrade increase (WIGI). IAF, Tab 1. The appellant also
alleged multiple deficiencies in the agency’s training
program and asserted that the agency’s actions were
the result of discrimination. In addition, he alleged
that the agency’s decision to discontinue his training
was tantamount to a constructive removal. IAF, Tab 7
at 5.
16 The administrative judge issued an order to
show cause, notifying the parties of the elements and
burdens of proof for establishing Board jurisdiction.
IAF, Tab 4. Because the appellant’s response raised a
constructive removal claim, the administrative judge
issued a supplemental order to show cause to address
this claim. IAF, Tab 13. After providing the parties
with the opportunity to respond to the orders and
without holding a hearing, the administrative judge
issued an initial decision dismissing the appeal for
lack of jurisdiction. IAF, Tab 21, Initial Decision (ID)
at 1, 11. Specifically, the administrative judge found
that the appellant failed to nonfrivolously allege that
he had suffered an appealable reduction in grade or
pay or that he was denied a WIGI. ID at 6-10. The
administrative judge also found that, absent an
otherwise appealable action, the Board lacked

App. 40a
jurisdiction over the appellant’s claim of sex
discrimination. ID at 10. The appellant then filed a
petition for review of the initial decision. Petition for
Review (PFR) File, Tabs 1-2. The agency filed a
response to the petition for review. PFR File, Tab 4.
DISCUSSION OF ARGUMENTS ON REVIEW
If 7 On review, the appellant argues that the
Board has jurisdiction over claims filed by FAA
employees, including performance-based actions
taken under chapter 43.5 PFR File, Tab 1 at 4-5, 7.
Specifically, the appellant appears to be arguing that
the termination of his training was such a
performance-based action. However, contrary to the
appellant’s assertions, the agency did not take a
performance-based action under 5 U.S.C. § 4303 when
it terminated his training. Thus, those procedures are
not applicable here.
1f8 The appellant also asserts that he provided
evidence and argument below showing that his
reassignment, from the ATCS-2152-LG position at the
ARTCC
to the ATCS-2152-GG position in
Harrisburg, was a reduction in grade and that the
administrative judge erred in finding otherwise. PFR
File, Tab 1 at 8-10. The appellant argues that, because
he was reduced in grade and pay, the administrative
6 The appellant on review does not challenge the administrative
judge’s finding that he was not denied a WIGI, and we therefore
need not disturb this finding.

App. 41a
judge erred by dismissing this appeal for lack of Board
jurisdiction. Id. However, as the administrative judge
correctly found, there is
no evidence that the
appellant was reduced in grade and pay. Moreover, the
administrative judge correctly found that, even if the
appellant was subjected to a reduction in grade and
pay, the record reflects that the appellant voluntarily
accepted the reassignment in lieu of removal after he
failed to complete the agency’s training requirements.
IAF, Tab 16.
U9
To the extent the appellant reiterates his claim
that his reassignment was involuntary because
agency policy did not provide him any option of
remaining in his current duty station after his
training was terminated, PFR File, Tab 1 at 8-11, we
disagree. A choice between unpleasant alternatives
does not render a decision to accept the agency’s
proposal involuntary. Soler-Minardo v. Department of
Defense, 92 M.S.P.R. 100, f 9 (2002) (finding that the
fact that the appellant was faced with either a
demotion or a possible removal did not render his
acceptance of the agency’s proposal involuntary).
Here, the appellant does not submit any evidence or
argument suggesting that his acceptance of the
reassignment to the ATCS-2152-GG position was
based on misinformation. Cf. Wright v. Department of
Transportation, 99 M.S.P.R. 112, If 10 (2005)
(observing that the appellant’s assertion that he
accepted a position based on agency misinformation
regarding the nature of the reassignment and its

App. 42a
effect on his base pay constituted a nonfrivolous
allegation that the appellant’s reduction in pay was
involuntary). Thus, as the administrative judge
correctly found, the appellant failed to nonfrivolously
allege that he suffered an appealable reduction in
grade and pay.
The appellant also asserts that the agency
Uio
engaged in ex parte communications6 in connection
with the decision to terminate his training, and thus
violated his right to due process. The appellant asserts
that he raised this claim below and that the
administrative judge failed to address it in the initial
decision. PFR File, Tab 1.
Pursuant to 5 U.S.C. § 7701(c)(2), an
nil
agency’s adverse action “may not be sustained ... if
the employee or applicant for employment shows
harmful error in the application of the agency’s
procedures in arriving at such decisionU” Reversal of
an agency’s action is therefore required where an
appellant establishes that the agency committed a
procedural error that likely had a harmful effect on
the outcome of the case before the agency. Goeke v.
Department of Justice, 122 M.S.P.R. 69, n 7 (2015).
Here, the record reflects that the appellant attempted
to file a new Board appeal concerning this same action
6 An ex parte communication is a communication between one
party and the decision-maker where the other party is not
present and not given the opportunity to present his or her side
of the argument. Stone v. Federal Deposit Insurance
Corporation, 179 F.3d 1368, 1372-73 (Fed. Cir. 1999).

App. 43a
by submitting a pleading in which he raised due
process arguments. IAF, Tab 19. Rather than
docketing this pleading as a new appeal, the
administrative judge noted that the appellant was
alleging that the agency’s actions in this case resulted
in due process violations, and she entered the pleading
into the record in the instant appeal. IAF, Tab 20.
However, while the administrative judge submitted
the pleading into the record, she neglected to address
the appellant’s due process arguments in the initial
decision. Nonetheless, because we now address the
appellant’s due process arguments, the administrative
judge’s failure to do so was not prejudicial to the
appellant’s substantive rights, and it provides no basis
for reversal of the initial decision. Panter v.
Department of the Air Force, 22 M.S.P.R. 281, 282
(1984)..
1112
The appellant asserted below and on
review that the agency’s proposal notice informing
him that the TRB had recommended termination of
his training is a de facto decision notice, rather than a
proposal notice, “because it was obvious” from the
notice that the decision already had been made to
terminate his training. PFR File, Tab % IAF, Tab 7 at
15. Specifically, the appellant argues that the agency
failed to provide him the opportunity to respond to the
proposed adverse action prior to receiving the de facto
decision notice and prior to his being placed in a duty
assignment with the Plans & Programs Office. PFR
File, Tab 1 at 5-6. Thus, the appellant contends that

App. 44a
this resulted in the agency violating both agency
procedures and his due process right to a 30-day
advance written notice of the agency’s action against
him. Id.
It appears that the appellant’s argument is
113
based on his belief that the agency’s decision to
terminate his training constitutes an appealable
adverse action. However, the Board’s jurisdiction is
limited to those matters over which it has been given
jurisdiction by law, rule, or regulation. Maddox v.
Merit Systems Protection Board, 759 F.2d 9, 10 (Fed.
Cir. 1985). In this case, the Board does not have
jurisdiction over an agency’s decision to terminate an
employee’s training. Nor does it have jurisdiction over
the agency’s rules and procedures for required
training and the process and the implementation of
those procedures. Thus, any error by the
administrative judge in failing to address this
argument is harmless, as it provides no basis for
reversal of the initial decision.
114
In any event, even if we were to find that
the Board has jurisdiction over this appeal, we would
find no merit to the appellant’s claim that the agency
violated his right to due process of law. Due process is
a fundamental principle of law that ensures that legal
proceedings will be fair and that citizens will be given
notice of the proceedings and an opportunity to be
heard before the Government deprives them of life,
liberty, or property. The U.S. Constitution guarantees
due process and applies to the property interest of

App. 45a
public employment in which the Government has
demonstrated that there is cause to remove or
suspend an employee. See Gilbert v. Homar, 520 U.S.
924, 935-36 (1997) (suspension); Cleveland Board of
Education v. Loudermill, 470 U.S. 532, 541 (1985)
(removal). The appellant seems to argue that, under
the U.S. Court of Appeals for the Federal Circuit’s
decisions in Ward v. U.S. Postal Service, 634 F.3d
1274, 1279-80 (Fed. Cir. 2011), and Stone v. Federal
Deposit Insurance Corporation, 179 F.3d 1368, 137677 (Fed. Cir. 1999), his right to due process was
violated by ex parte communications between the TRB
and the instructors and supervisors who were
interviewed by the TRB. PFR File, Tab 1 at 5-6.
Ward and Stone stand for the proposition that a
deciding official violates an employee’s due process
rights when he relies upon new and material ex parte
information as a basis for his decision on the merits of
a proposed charge or the penalty to be imposed. See
Mathis v. Department of State, 122 M.S.P.R. 507, If 6
(2015). In this case, the appellant received a copy of
the TRB report, along with the April 15, 2013
memorandum from the Air Traffic Manager notifying
him of his training status being terminated due to
unsatisfactory performance. The memorandum
advised the appellant that he could submit a reply
within 7 days. IAF, Tab 16, Ex. D. The appellant
supplied a written response on April 23, 2013. IAF,
Tab 15, Ex. H. In his May 13, 2013 memorandum
finalizing the decision to terminate the appellant’s

App. 46a
training, the Air Traffic Manager specifically
mentioned that he considered the appellant’s written
reply. Id., Ex. I. In addition, the TRB merely convened
to consider and ultimately recommend terminating
the appellant’s training. IAF, Tab 18, Subtabs 0, P.
The TRB did not propose or recommend discipline.
Indeed, there was no proposed action or discipline in
this case. Rather, the appellant accepted a
reassignment in lieu of a removal action. Thus, the
appellant was not deprived of any property interest.
Therefore, whether the agency committed harmful
error or violated the appellant’s due process rights by
implementing its training requirements and TRB
process is of no consequence in this appeal.
Based on the foregoing, we discern no basis
115
for disturbing the administrative judge’s finding that
the appellant failed to make a nonfrivolous allegation
of an involuntary reduction in grade or pay. See
Henderson v. Department of the
Treasury, 61
M.S.P.R.
61,
65
(1994).
Accordingly,
the
administrative judge properly dismissed the appeal
for lack of jurisdiction without holding a hearing. See
id. The initial decision, as supplemented by this Final
Order, constitutes the Board’s final decision in this
matter. 5 C.F.R.§ 1201.113.
NOTICE TO THE APPELLANT REGARDING
YOUR FURTHER REVIEW RIGHTS
You have the right to request review of this final

App. 47a
decision by the U.S. Court of Appeals for the Federal
Circuit. You must submit your request to the court at
the following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, DC 20439
The court must receive your request for review no
later than 60 calendar days after the date of this order.
Seeb U.S.C. § 7703(b)(1)(A) (as rev. eff. Dec. 27, 2012).
If you choose to file, be very careful to file on time. The
court has held that normally it does not have the
authority to waive this statutory deadline and that
filings that do not comply with the deadline must be
dismissed. See Pinat v. Office of Personnel
Management 931 F.2d 1544 (Fed. Cir. 1991).
If you need further information about your
right to appeal this decision to court, you should refer
to the Federal law that gives you this right. It is found
in title 5 of the U.S. Code, section 7703 (5 U.S.C. §
7703) (as rev. eff. Dec. 27, 2012). You may read this
law as well as other sections of the U.S. Code, at our
website,
http://www.mspb.gov/appeals/uscode.htm.
Additional information is available at the court’s
website, www.cafc.uscourts.gov. Of
particular
relevance is the court’s “Guide for Pro Se Petitioners
and Appellants,” which is contained within the court’s
Rules of Practice, and Forms 5, 6, and 11.
If you are interested in securing pro bono

App. 48a
representation for an appeal to the U.S. Court of
Appeals for the Federal Circuit, you may visit our
website
at
http://www.mspb.gov/probono
for
information regarding pro bono representation for
Merit Systems Protection Board appellants before the
Federal Circuit. The Merit Systems Protection Board
neither endorses the services provided by any
attorney nor warrants that any attorney will accept
representation in a given case.

FOR THE BOARD:

Washington, D.C.

(

/s/ Jennifer Everling
Jennifer Everling
Acting Clerk of the Board

App. 49a
UNITED STATES OF AMERICA MERIT SYSTEMS
PROTECTION BOARD
WASHINGTON REGIONAL OFFICE

THOMAS F.
SWEENEY,
Appellant,
v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DOCKET NUMBER
DC-0752-15-0060-1-1

DATE: April 12, 2016

Thomas F. Sweeney, Frederick, Maryland, pro se.
Jennifer D. Ambrose, Esquire, Washington, D.C., for
the agency
BEFORE
Sherry A. Zamora
Administrative Judge
INITIAL DECISION
On October 15, 2014, the appellant, Thomas F.
Sweeney, filed an appeal with the Merit Systems
Protection Board (MSPB) challenging the agency’s
decision to terminate his training and alleging an
involuntary removal from his position. Because there
was no factual dispute bearing on the issue of
jurisdiction and because the appellant failed to make
a nonfrivolous allegation of jurisdiction, the hearing

I

App. 50a
the appellant requested was not held. See Manning v.
Merit Systems Protection Board, 742 F.2d 1424, 142728 (Fed. Cir. 1984). For the reasons below, the appeal
is dismissed for lack of jurisdiction,
jurisdiction
Undisputed Facts
The appellant was employed as a Developmental
Air Traffic Control Specialist (ATCS) at the
Washington Air Route Traffic Control Center
(Washington ARTCC or Washington Center), with the
Federal Aviation Administration (FAA), Department
of Transportation (agency). On December 67, 2012, a
training review board (TRB) met to evaluate the
training of several employees, including the appellant.
AF, Tab 18, Appellant’s Exhibit 0. Although the TRB
identified training deficiencies for the appellant, it
decided to continue the appellant’s training at
Washington Center and provided specific training
recommendations to address the appellant’s
performance issues. Id. The appellant’s training was
subsequently suspended on February 22, 2013. As a
result, another TRB met on April 11, 2013. Id. at
Appellant’s Exhibit P. The review board determined
that the appellant had continuing performance
deficiencies which had not been resolved by the
additional training provided. Id. at Appellant’s
Exhibit P. The TRB determined that the appellant
could not achieve the necessary certification and
recommended that his training be discontinued. Id.
The TRB participants further recommended, however,

App. 51a
that the appellant “be given strong consideration for
reassignment to a lower level facility, as per agency
directives.” Id.
By memorandum dated April 15, 2013, Steven
Stooksberry, Air Traffic Manager, informed the
appellant that his training was being terminated due
to his unsatisfactory performance in Radar Controller
Training, Stage IV. AF, Tab 16, Appellant’s Exhibit D.
The appellant was advised that, in accordance with
the Human Resources Policy Manual, Employment
Policy for Air Traffic Control Specialist in Training
(EMP 1.14), dated June 23, 2006, he could discuss the
matter with the Support Manager for Training and,
within seven calendar days following receipt of the
notification, he could provide written comments
regarding the proposed action. Id. See also AF, Tab
15, Appellant’s Exhibit G. He was informed that, if no
response was received within the response period, it
would be considered that there were no comments and
the appropriate action, either position change or
separation, would be initiated. Id. The appellant filed
a written response dated April 23, 2013. AF, Tab 18,
Appellant’s Exhibit Q. In his response, Mr.
Stooksberry acknowledged the appellant’s response
but found that there had been agreement between the
appellant’s “peer, management, staff and training
administrator TRB participants” regarding the
appellant’s failure to adequately complete the
required training and, thus, he found “no reason to
reconsider [his] decision to terminate [the appellant’s]
training and forward [his] case to the National

App. 52a
Employee Services Team.” Id. at Appellant’s Exhibit
L.
By memorandum dated May 13, 2013,7 Mr.
Stooksberry issued a final determination that the
appellant’s “training at Washington ARTCC be
terminated and that the disposition of this matter be
processed in accordance with EMPl.l4a and Article
61 of the 2009 Collective Bargaining Agreement
between the National Air Traffic Controllers
Association
and
the
Federal
Aviation
Administration.” AF, Tab 15, Appellant’s Exhibit L.
On August 7, 2013, the appellant submitted a request
for reconsideration based on allegations that the
training provided by the agency was deficient. Id. at
Exhibit K. In his response, Mr. Stooksberry
addressed the findings of the two TRB’s. Id. at
Exhibit M. He noted that, while the first TRB noted
performance deficiencies, it recommended additional
training but, in the second TRB, all members
unanimously agreed that skill enhancement training
would not adequately address and correct the
appellant’s performance deficiencies and, thus, they
concurred with the decision to suspend his training.
Id. Accordingly, Mr. Stooksberry determined that
there was no reason to reconsider his decision to
terminate the appellant’s training and forward his
case to the National Employee Services Team. Id. at
Exhibit L.
7 The appellant indicated that he did not receive the
memorandum until May 30, 2013. AF, Tab 14

App. 53a
In the agency’s report of investigation in regard to
the appellant’s discrimination claim, the agency
indicated that the appellant stated that he was given
the following reassignment options ^ Atlantic City,
New Jersey; Allentown Pennsylvania; and Cape
TRACON in Falmouth, Massachusetts. AF, Tab 2,
Page 28.8 However, the appellant said that he asked
Mr. Stooksberry if there were other options, and Mr.
Stooksberry advised him to confer with the National
Air Traffic Controllers Association (NATCA). Id. The
appellant’s regional NATCA representative was able
to get a facility at Harrisburg, Pennsylvania added to
the appellant’s list of options and the appellant
accepted the offer to that location because it was
closer to his home. AF, Tab 16, Appellant’s Exhibit B.
Accordingly, by memorandum dated November 29,
2013, the appellant was offered an assignment to the
Harrisburg facility effective December 1, 2013. Id. at
Appellant’s Exhibit A. The appellant was required to
indicate whether or not he accepted the agency’s
offer. Id. at Appellant’s Exhibit B. He was advised
that, if he declined the offer of assignment, his
removal from the ATCS position and from the Federal
service would be proposed. Id. The appellant accepted
the assignment and he was reassigned to the
Harrisburg facility. Id.
The appellant filed a discrimination complaint
with the agency alleging that the agency’s action was
8A11 cited page numbers refer to the page numbers assigned by
the Board’s electronic case file.

/

App. 54a
discriminatory against based on his sex when, in
September 2013, he determined that his training was
not conducted in accordance with FAA orders and
procedures and, because his training at Washington
ATRCC was terminated, he was transferred to a
lower-level facility and reassigned to a downgraded
position effective December 1, 2013. AF, Tab 2, Page
3. In its final agency decision, the agency determined
that no discrimination had resulted. Id. at Page 36.
On October 15, 2014, the appellant filed the
instant appeal with the MSPB alleging a reduction in
grade and pay and a denial of a withingrade increase
(WIGI). AF, Tab 1. The appellant alleged multiple
deficiencies in the agency’s training program and
asserted that the agency’s actions were the result of
discrimination. Id. Because it appeared that this
appeal may not be within the jurisdiction of the
MSPB, an Order to Show Cause was issued on
October 23, 2014. AF, Tab 4. In his response, filed
November 2, 2014, the appellant alleged that the
agency’s decision to discontinue his training was
tantamount to a constructive removal. AF, Tab 7,
Page 5. A Supplemental Order to Show Cause was
issued on December 13, 2014, to address the
appellant’s constructive removal claim. AF, Tab 13.
The appellant filed multiple submissions which
have been fully considered. AF, Tabs 1-2, 6-7, 14-16,
and 18-19. The agency filed a response and motion to
dismiss the appeal for lack of jurisdiction. AF, Tab 17.
All evidence and argument from both parties has been
fully considered.

App. 55a
Legal Standard and Burden of Proof
As noted above, the appellant has alleged an
involuntary reassignment to a downgraded position,
the denial of a WIGI, and an involuntary removal. The
jurisdiction of the MSPB is not plenary, but is limited
to those areas specifically granted by some law, rule,
or regulation. See 5 U.S.C. § 7701(a); Johnston v.
Merit Systems Protection Board, 518 F.3d 905, 909
(Fed. Cir. 2008). Thus, the Board does not have
jurisdiction over all actions that are alleged to be
incorrect. See, e.g., Weyman v. Department of Justice,
58 M.S.P.R. 509, 512 (1993). The appellant bears the
burden of establishing by preponderant evidence that
the Board has jurisdiction over his appeal. See 5
C.F.R. § 1201.56(a)(2). Preponderance of the evidence
is defined by regulation as the degree of relevant
evidence that a reasonable person, considering the
record as a whole, would accept as sufficient to find
that a contested fact is more likely to be true than
untrue. See 5 C.F.R. § 1201.56(c)(2).
The appellant has requested a hearing. AF, Tab 1.
To be entitled to a jurisdictional hearing, the
appellant must make a nonfrivolous allegation of
jurisdiction. Non-frivolous allegations of Board
jurisdiction are allegations of fact, which if proven,
could establish a prima facie case that the Board has
jurisdiction over the matter at issue. Ferdon v. U.S.
Postal Service, 60 M.S.P.R. 325, 329 (1994). To meet
the non-frivolous standard, an appellant need only
plead allegations of fact which, if proven, could show
jurisdiction, though mere pro forma allegations are

App. 56a
insufficient to satisfy the non-frivolous standard. Id.
The pertinent determination is whether the appellant
alleged facts which, if proven, would constitute a
prima facie case of jurisdiction. However, for the
reasons discussed below, I find that the appellant did
not meet the requisite burden and, thus, he was not
afforded the hearing he requested.
The appellant failed to establish the MSPB’s
jurisdiction over the alleged denial of a WIGI.
In his appeal form, the appellant checked a box on
the form indicating that he was appealing the denial
of a WIGI. AF, Tab 1. He provided no further
evidence or documentation regarding this allegation.
In response to my show cause order, the appellant
indicated only that, as a result of the agency’s
discrimination, he was denied a WIGI. AF, Tab 7,
Page 6.
The MSPB generally has jurisdiction over a denial
of a WIGI after a negative determination of
acceptable performance is sustained by the agency
after reconsideration. 5 C.F.R. § 531.401(d). An
agency’s denial on reconsideration is a statutory
requirement which must be met before an appeal
denying a WIGI is properly within the MSPB’s
jurisdiction. See Priselac v. Department of the Navy,
77 M.S.P.R. 332 (1998) (MSPB can exercise
jurisdiction over an appeal from the withholding of a
WIGI only if the agency has affirmed its initial
determination
upon
reconsideration
or
has
unreasonably refused to act on a request for
reconsideration). An appeal to the MSPB must then

App. 57a
be filed within the required time period following
issuance of the agency’s reconsideration decision.
The appellant provided no evidence or argument
that a WIGI was denied or that reconsideration of any
denial of a WIGI was requested and issued. His bare
allegation that the agency’s discrimination against
him resulted in a WIGI is insufficient to constitute a
nonfrivolous allegation of jurisdiction. Thus, I find
that the appellant failed to establish the MSPB’s
jurisdiction over this allegation by preponderant
evidence.
The appellant failed to establish by preponderant
evidence that he suffered an appealable
reassignment or a constructive removal.
In response to my show cause orders, the appellant
asserted that the termination of his training was a
“constructive removal.” AF, Tab 7, Pages 67. However,
a removal involves a separation from the Federal
service and the termination of a training program and
resulting reassignment does not constitute such a
separation. The agency has asserted without dispute
that the appellant has not been separated from service
and the appellant notes throughout his submissions
that he accepted a reassignment to another facility.
Thus, there is no evidence that a constructive removal
has occurred.
The appellant further asserted that the
“termination of training on [May 30, 2013] was the
actual
adverse
action.”
However,
absent
circumstances not present here, a denial of training

App. 58a
is not within the Board’s jurisdiction. 5 C.F.R. §
1201.3.
The appellant further asserts that he was
involuntarily reassigned to a lower graded and/or
lower paying position. An employee’s reassignment to
another position within an agency is not generally
appealable to the MSPB as an adverse action. See
Tankesley v. Tennessee Valley Authority, 54 M.S.P.R.
147, 150 (1992); Tines v. Department of the Air Force,
56 M.S.P.R. 90, 93 (1992). An exception exists for
actions which result in a reduction of grade or pay.
5 C.F.R. §§ 752.401(a)(3) and (4). However, as the
appellant was advised in my show cause order, there
is nothing in any documentation submitted with the
appellant’s appeal demonstrating that the appellant
was reassigned to a position at a reduced grade and/or
pay. AF, Tabs 1, 4. If the appellant’s reassignment did
result in a reduction in grade or pay, the appellant
was ordered to submit evidence to support his
allegation. AF, Tab 4. He failed to do so. Thus, in none
of his submissions to the MSPB did the appellant
establish an actual reduction in grade or pay. AF,
Tabs 1-2, 6-7, 1416, 18-19.
Moreover, to constitute an appealable action, a
reduction in grade or pay must be involuntary. 5
C.F.R. § 752.401(b)(9); Garcia v. Department of
Homeland Security,
437
F.3d
1322,
1328
(Fed.Cir.2006) (en banc); Huyler v. Department of the
Army, 101 M.S.P.R. 570, If 7 (2006). A reduction in
grade would be considered involuntary if the
appellant proves that it was obtained by agency

App. 59a
coercion, misinformation, or deception. Huyler, 101
M.S.P.R. 570, If 5. See also Scharf v. Department of
the Air Force, 710 F.2d 1572,1574-75 (Fed. Cir. 1983).
To establish a claim of duress or coercion, the
appellant must show that: (l) one side involuntarily
accepted the terms of another! (2) circumstances
permitted no alternative! and (3) those circumstances
were the result of coercive acts of the opposite party.
Soler Minardo v. Department ofDefense, 92 M.S.P.R.
100, 1f6, review dismissed, 53 Fed. Appx. 545
(Fed.Cir.2002).
In order to establish involuntariness on the basis
of coercion, an employee must show that the agency
effectively imposed the terms of his demotion, that the
employee had no realistic alternative, and that the
employee’s decision was the result of improper acts by
the agency.9 The common element in all cases finding
an involuntary action is that factors have operated on
the employee’s decisionmaking processes that
deprived him of freedom of choice. See Heining v.
General Services Administration, 68 M.S.P.R. 513,
519 (1995). The determination of whether the
employee was effectively deprived of free choice is
based on the totality of the circumstances. Id. at 51920. When considering whether an action was

9 Again, there is no showing that any demotion occurred as the
appellant failed to present evidence or argument showing any
reduction in grade or pay. Nonetheless, assuming, arguendo, that
there was any such reduction, the appellant’s reassignment was,
as discussed herein, voluntary.

App. 60a
“involuntary,” it is well established that the fact that
an employee is faced with an inherently unpleasant
situation or that his choices are limited to unpleasant
alternatives does not make his decision involuntary.
See Lawson v.U.S. Postal Service, 68 M.S.P.R. 345,
350 (1995).
If the action is not initiated by an employee, then
the action is not presumed to be voluntary. Solev
Minardo, 92 M.S.P.R. 100, ^5. However, the MSPB
and its reviewing court, the Court of Appeals for the
Federal Circuit, have not interpreted the phrase
“initiated by” to require the change be suggested, in
the first instance, by the employee. Rather, this
phrase also encompasses actions voluntarily agreed
to by the employee based upon the agency's proposal.
See Gaudette v. Department of Transportation, 832
F,2d 1256, 1258 (Fed. Cir. 1987); Goodwin v.
Department of Transportation , 106 M.S.P.R. 520, 12
(2007).
Upon review of the evidence and argument, I must
find that the appellant has failed to make a
nonfrivolous allegation of jurisdiction. First, as noted
herein, there is no evidence or argument that the
appellant’s reassignment involved a reduction in
grade or pay. Further, while the appellant disagrees
with the agency’s decision to terminate his training,
he has provided very little argument and no
supporting evidence to suggest that agency officials
caused his training failure or knew that the threat to
remove him on this basis was unsupportable. To the
contrary, the record indicates that the decision to

App. 61a
terminate the appellant’s training was unanimous
among multiple agency officers, including two
training review boards, and was reached only after
months of well- documented retraining efforts failed.
The appellant has provided no basis for concluding
that agency officials intentionally caused him to fail
the training.
Further, the appellant accepted the reassignment
to a different position when he failed to complete the
agency’s training requirements. AF, Tab 16,
Appellant’s Exhibit B. The appellant asserted that,
because the agency had advised him that, if he
declined the reassignment offer, he may be removed 5
his reassignment was involuntary. Id. See also AF,
Tab 16, Exhibits A-B. He further asserted that the
agency’s actions were the result of sex discrimination
based on allegations that multiple female employees
were given additional training and treated differently
than he was which led to his removal, reduction in pay
and grade, and denial of his WIGI. AF, Tab 7, Page 4.
In its notice of reassignment, the agency indicated
that, if he declined it, his removal from his ATCS
position and from the Federal service would be
proposed. AF, Tab 2, Page 2. However, the fact
remains that the appellant had an option in that he
could have declined it and then challenged the
removal action.
The fact that he accepted the
reassignment in lieu of removal does not make his
reassignment involuntary because he had the option
to face removal and exercise his appeal rights to the
EEOC and/or the MSPB. While this is admittedly an

App. 62a
unpleasant choice to face, it is well established that
the fact that an employee is faced with unpleasant
alternatives does not in and of itself render the
situation improperly coercive. See Lawson, 68
M.S.P.R. at 350. Thus, under the totality of the
circumstances established by the written record for
this appeal, I find that the appellant has failed to nonfrivolously allege that he suffered an appealable
reduction in grade or pay.
Although the appellant has alleged sex
discrimination, it is well established that, absent an
otherwise appealable action, the
MSPB lacks
independent jurisdiction to decide these affirmative
defenses. Wren v. Department ofthe Army, 2 M.S.P.R.
1, 2 (1980), affd, 681 F.2d 867, 87173 (D.C. Cir. 1982).
Moreover, as noted above, because the appellant has
failed to present a nonfrivolous allegation of
jurisdiction, he is not entitled to the hearing he
requested.
For all of the reasons discussed above, I find that
the appellant has failed to present a nonfrivolous
allegation of jurisdiction and, accordingly, this
appeal must be dismissed for lack of jurisdiction.
Decision
The appeal is DISMISSED.
FOR THE BOARD:
/S/
Sherry A. Zamora
Administrative Judge
NOTICE TO APPELLANT

App. 63a

This initial decision will become final on May 17.
2016 unless a petition for review is filed by that date.
This is an important date because it is usually the last
day on which you can file a petition for review with the
Board. However, if you prove that you received this
initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30
days after the date you actually receive the initial
decision. If you are represented, the 30-day period
begins to run upon either your receipt of the initial
decision or its receipt by your representative,
whichever comes first. You must establish the date on
which you or your representative received it. The date
on which the initial decision becomes final also
controls when you can file a petition for review with
the Court of Appeals. The paragraphs that follow tell
you how and when to file with the Board or the federal
court. These instructions are important because if
you wish to file a petition, you must file it within the
proper time period.
BOARD REVIEW
You may request Board review of this initial
decision by filing a petition for review.
If the other party has already filed a timely
petition for review, you may file a cross petition for
review. Your petition or cross petition for review
must state your objections to the initial decision,
supported by references to applicable laws,
regulations, and the record. You must file it with:

App. 64a
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed
by mail, facsimile (fax), personal or commercial
delivery, or electronic filing.A petition submitted by
electronic filing must comply with the requirements of
5 C.F.R. § 1201.14, and may only be accomplished at
Board's
eAppeal
website
the
(httpsV/eappeal. mspb.gov).
Criteria for Granting a
Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board
normally will consider only issues raised in a timely
filed petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition
for review include, but are not limited to, a showing
that:
(a) The initial decision contains erroneous findings
of material fact, (l) Any alleged factual error must be
material, meaning of sufficient weight to warrant an
outcome different from that of the initial decision. (2)
A petitioner who alleges that the judge made
erroneous findings of material fact must explain why
the challenged factual determination is incorrect and
identify specific evidence in the record that
demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference
judge’s
credibility
to
an
administrative
determinations when they are based, explicitly or

App. 65a
implicitly, on the observation of the demeanor of
witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous
interpretation of statute or regulation or the
erroneous application of the law to the facts of the
case. The petitioner must explain how the error
affected the outcome of the case.
(c) The judge’s rulings during either the course of
the appeal or the initial decision were not consistent
with required procedures or involved an abuse of
discretion, and the resulting error affected the
outcome of the case.
(d) New and material evidence or legal argument
is available that,
despite the petitioner’s due
diligence, was not available when the record closed. To
constitute new evidence, the information contained in
the documents, not just the documents themselves,
must have been unavailable despite due diligence
when the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for
review, a cross petition for review, or a response to a
petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500
words, whichever is less. A reply to a response to a
petition for review is limited to 15 pages or 3750
words, whichever is less. Computer generated and
typed pleadings must use no less than 12 point
typeface and 1-inch margins and must be double
spaced and only use one side of a page. The length
limitation is exclusive of any table of contents, table of

App. 66a
authorities, attachments, and certificate of service. A
request for leave to file a pleading that exceeds the
limitations prescribed in this paragraph must be
received by the Clerk of the Board at least 3 days
before the filing deadline. Such requests must give the
reasons for a waiver as well as the desired length of
the pleading and are granted only in exceptional
circumstances. The page and word limits set forth
above are maximum limits. Parties are, not expected
or required to submit pleadings of the maximum
length. Typically, a well-written petition for review is
between 5 and 10 pages long.
If you file a petition or cross petition for review, the
Board will obtain the record in your case from the
administrative judge and you should not submit
anything to the Board that is already part of the
record. A petition for review must be filed with the
Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is
received by you or your representative more than 5
days after the date of issuance, 30 days after the date
you or your representative actually received the initial
decision, whichever was first. If you claim that you
and your representative both received this decision
more than 5 days after its issuance, you have the
burden to prove to the Board the earlier date of
receipt. You must also show that any delay in
receiving the initial decision was not due to the
deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or
under penalty of perjury ( see 5 C.F.R. Part 1201,

App. 67a
Appendix 4) to support your claim. The date of filing
by mail is determined by the postmark date. The
date of filing by fax or by electronic filing is the date
of submission. The date of filing by personal delivery
is the date on which the Board receives the document.
The date of filing by commercial delivery is the date
the document was delivered to the commercial
delivery service. Your petition may be rejected and
returned to you if you fail to provide a statement of
how you served your petition on the other party. See 5
C.F.R.§ 1201.4(j). If the petition is filed electronically,
the online process itself will serve the petition on other
e-filers. See 5 C.F.R. § 1201.14(j)(l).
A cross petition for review must be filed within 25
days after the date of service of the petition for review.
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for
review of this initial decision in accordance with the
Board's regulations.
notice to the appellant regarding
your further review rights
You have the right to request review of this final
decision by the United States Court of Appeals for the
Federal Circuit. You must submit your request to the
court at the following address^
United States Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, DC 20439

App. 68a
The court must receive your request for review no
later than 60 calendar days after the date this initial
decision becomes final. See 5 U.S.C. § 7703(b)(1)(A)
(as rev. eff. Dec. 27, 2012). If you choose to file, be very
careful to file on time. The court has held that
normally it does not have the authority to waive this
statutory deadline and that filings that do not comply
with the deadline must be dismissed. See Pinat v.
Office ofPersonnel Management, 931 F.2d 1544 (Fed.
Cir. 1991).
If you need further information about your right to
appeal this decision to court, you should refer to the
federal law that gives you this right. It is found in
Title 5 of the United States Code, section 7703 (5
U.S.C. § 7703) (as rev. eff. Dec. 27, 2012). You may
read this law as well as other sections of the United
States
Code,
at
our
website,
httpV/www.mspb.gov/appeals/uscode/htm. Additional
information is available at the court's website,
www.cafc.uscourts.gov. Of particular relevance is the
court's "Guide for
Pro
Se Petitioners and
Appellants," which is contained within the court's
Rules of Practice, and Forms 5, 6, and 11.
If you are interested in securing pro bono
representation for your court appeal, that is,
representation at no cost to you, the Federal Circuit
Bar Association may be able to assist you in finding
an attorney. To find out more, please click on this link
or paste it into the address bar on your browser:
http s 7/fedcirbar. or g/Pro - BonoS cholar ship s/Government- Employees -Pro -

App. 69a
Bono/Overview - FAQ
The Merit Systems Protection Board neither
endorses the services provided by any attorney nor
warrants that any attorney will accept representation
in a given case.

App. 70a

FILED: August 13, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1458
(i:i7-cv-00926-CMH-IDD)

THOMAS F. SWEENEY
Petitioner - Appellant
v.
MERIT SYSTEMS PROTECTION BOARD
Respondent - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel! Chief
Judge Gregory, Judge Wynn, and Judge Thacker.
For the Court
/s/ Patricia S. Connor. Clerk

App. 71a
No. 18-1458

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

THOMAS F. SWEENEY,
Appellant,
v.
MERIT SYSTEMS PROTECTION BOARD
Appellee.
Appeal From The United States District Court For
The Eastern District Of Virginia
Alexandria Division

PETITION FOR REHEARING
Thomas F. Sweeney, pro se
7083B Jasper Dr
Middletown, MD 21769
Phone: (804) 457-8868
Fax: (703) 936-4036

App. 72a

Table of Contents
Table of Contents
Table of Authorities

11
IV

STATEMENT REQUIRED BY LOCAL RULE
40(b)..................................................................

1

BACKGROUND....................................................

6

ARGUMENT.................. .......................................

9

A. Panel's opinion overlooked a material factual
that Termination of Training requires the
9
employee's removal from the position
B. Panel relied on Appellee's incorrect description
12
of 'clean slate'
C. Panel's opinion overlooked a material fact that
Appellant was immediately subjected to the
procedural actions of the proposal termination
of training before having the ability to
respond
13
D. Panel's opinion is in conflict with multiple
Supreme Court decisions that require a
government employee has an opportunity to
respond before an adverse action is taken..... 15
E. Panel's opinion is in conflict with the Supreme
Court's decisions that require liberal discretion
when
dealing
with
prose
litigants
16
F. Panel's opinion is in conflict with the Supreme
Court's and the Federal Circuit's opinions of

App. 73a
jurisdiction of MSPB mixed case claims without
a
discrimination
cause
of
action
17
G. Panel's opinion lacked consideration of the
FAA's Termination of Training due process as it
is subjected on an average of 608 Federal
Employees every year and is a matter of
exceptional
importance
17
CONCLUSION

19

CERTIFICATE OF COMPLIANCE REQUIRED BY
RULE 32(g)...............................

20

CERTIFICATE OF SERVICE

21

App. 74a
Table of Authorities
Cases

Page(s)

Cleveland Bd. ofEduc. v. Loudermill, 470 U.S. 532,
U.S. (1985)
5, 15
Gaudette v. Department of Transportation, 832 F.2d
1256, Fed. Cir. (1987)
2, 4, 12
Kloeckner v. Solis, 568 U. S. 41, 46, U.S. (2012)
Perry v. Merit Sys. Prot. Bd., No. 16-399,
U.S. (2017)......................................
Sweeney v. Merit Sys. Prot. Bd., 2019 U.S. App.
LEXIS 17930, 4th Cir. (2019).............................

4

4, 17

2

Stone v Federal Deposit Insurance, 179 F.3d 1368,
Fed. Cir. (1999)......................................................... 15
Ward v. United States Postal Service, 634 F.3d 1274,
Fed. Cir. (2011)
15
Rules
Federal Rule of Civil Procedure 12 (b) (6) .
Federal Rule of Civil Procedure 56...........
Federal Rule of Appellate Procedure 32(g)
Federal Rule of Appellate Procedure 40(b)

5
5
20

1

App. 75a
Constitutional Provisions
5th Amendment

(passim)

14th Amendment

(passim)

App. 76a
STATEMENT OF PURPOSE
REQUIRED BY RULE 40(b)
Rehearing is warranted as there are multiple
factual matters not addressed, a Jurisdictional
question, a question of exceptional importance, and an
opinion that is in direct conflict with the Supreme
Court, and other Court of Appeals that were not
addressed in this panel's unpublished opinion.
After Appellant's Counsel failed to properly
address direct questions by this panel during oral
arguments, Appellant removed his Counsel and filed
a Motion for Leave of Court to File Post Argument
Brief to address the questions of this Court and other
issues/reasoning Appellant found important. This
Court considered the Motion's supporting reasoning
for the brief- as the brief itself and granted the Motion.
This panel's unpublished opinion did not address or
reference any of the Motion for Leave of Court to File
Post Argument Brief content in any manner. The
majority of the Motion for Leave of Court to File Post
Argument Brief points are repeated in this petition.
This panel failed to address that a
determination of Training Termination of an Air
Traffic Control Specialist - In Training (ATCSTT, also
called a developmental ATCS) is a major adverse
action as this decision requires that the employee be
removed from their current position. This was not the
case in Gaudette as the FAA's procedures have
changed and now contained in Human Resources
Policy Manual 1.14a ("HRPM") (JA 124) along with

App. 77a
the issue in Gaudette not being a training failure, but
if
the lack of Notice to Appeal made their
reassignment an involuntary transfer. This panel
even acknowledges the FAA's current policy that to
remain employed as an Air Traffic Control Specialist
(ATCS), that the ATCS must satisfactorily complete
the training program in order to remain employed.
Unpublished Opinion (I) (A), Sweeney v. Merit
Sys. Prat. Bd., 2019 U.S. App. LEXIS 17930, Fourth
Circuit (2019) f 14. There is a direct nexus between a
decision of Training Termination at a facility and
being removed from the position, as the procedures
are directly listed in the HRPM 1.14a (JA 124). The
requirement that an ATCS must satisfactorily
completing training only reinforces that the decision
to Terminate the Training of an ATCS is a required
step that ends with the ATCSTT being removed from
federal service, or reassignment to a lower grade/pay
facility.
This panel also failed to address if the
Appellant's Due Process rights were violated by the
FAA when Appellant was subjected to the procedural
actions of a final decision of Training Termination on
April 16th 2013 when Appellant was only given a
Proposal of Training Termination on April 16th, 2013
(JA 067), thus making Appellant believe the decision
was already made before being able to provide any
written comments or concerns. The procedural actions
of a final decision of Training Termination includes
being removed from the control room floor, assigned

App. 78a
administrative duties, assigned administrative days
off I work hours, assigned to an administrative
supervisor, and required to take a 30 minute unpaid
lunch. With the fact that the word 'proposal' only
appeared once (in the bottom of the third paragraph)
of the purported Proposal of Training of Termination
received April 16th, 2013 (Subject: Discontinuation of
Training) at JA 067, along with the Training
Termination procedural actions already enacted, any
reasonable person would believe the decision was
already made to Terminate their Training and instead
of arguing with the deciding official who also decides
if that person is even offered a lower grade/pay ATCSIT position, one would reasonably only ask for
assistance in keeping their employment, and being
near their family- as the Appellant did.
Panel also overlooked if Appellant has the right
to re-challenge a final decision regarding Termination
of Training if Appellant did not select from the lower
grade/pay reassignment list. The Termination of
Training is directly related to, and apart of a removal
process, and should have MSPB appeal rights and due
process to a decision to Terminate Training.
On average 608 FAA Employees not complete
the training program per year. Although of the 608
employees some might be transfer or other reasons for
not completing training, but the vast majority will be
the result of Training Termination.
If Gaudette, which is the current controlling
case law, has changed due to a change in the FAA's

App. 79a
management procedures, the possibility of 608
government employees per year are being stripped of
their MSPB review rights by the usage of bad or
misunderstood case law that is in itself_ exceptional
importance- and must be addressed.
The Supreme Court ruled in Perry quoting
Kloeckner, that 'mixed-case' must be filed in district
court, as opposed to the Federal Circuit. But the 'key'
to district court review is a claim that an agency
appealable
to
the
MSPB
violates
an
antidiscrimination statute listed in §7702(a)(1). As
noted in this panel's opinion that Appellant did not
present a cause of action under Title VII. If this is the
case, Appellant did not meet the 'key' in Perry
(quoting Kloeckner) thus the district court did not
have jurisdiction, requiring transfer back to the
Federal Circuit.
In the instance where a complainant while
prose, comes to the district court as a mixed case
(where discrimination was claimed previously) and
fails to specifically assert a Title VII claim in their
complaint in district court, should the court
specifically issue a Show Cause Order of mixed case
proceedings requiring the appellant to amend the
complaint or waive their discrimination claims,
instead of holding them to such strict standards as
lawyers. If waiving their discrimination claims the
complaintant will be tranferred to the Federal Circuit
as required by law.
It has been upheld for almost half a century

App. 80a
that a civil servant holds a property right to their job
by the Supreme Court and must have due process
prior to it being taken away. "We conclude that all the
process that is due is provided by a pretermination
opportunity to respond....". Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 532, 1030-79 (Supreme Court
1985). With this panel's oversight that the Appellant
was subjected to the procedural elements of Training
Termination prior to even responding, his right of due
process was violated as he believed the decision was
already made, but the only reason for response is if
the air traffic manager should assign him [to a lower
grade/pay facility] or separate from federal service.
Since the panel overlooked factual evidence that a
genuine issue of material fact was present in the
district court, the FRCP Rule 12 (b) (6) motion to
dismiss must be converted to a FRCP Rule 56 motion
for summary judgement.
BACKGROUND
On August 5, 2009, Appellant began working
for the FAA as an air traffic control specialist - in
training ("ATCSTT", also called developmental
ATCS). An ATCSTT must successfully complete
extensive training before becoming a certified
professional controller ("CPC"). Pursuant to FAA
■ policy, in order to remain employed with the FAA as
an ATCS, an individual must satisfactorily complete
the FAA's training program, become a CPC by
obtaining a facility or area certification at the facility

App. 81a
the employee is assigned. If an ATCS-IT shows
difficulty in attaining certification, FAA Management
may Suspend an ATCS-IT training pending a Training
Review Board ("TRB"). ATRB's sole job is to interview
the On The Job Instructors that train the ATCS-IT,
the ATCS-IT supervisor, the ATCS-IT, and others who
had significant contact to determine if training
procedures were followed. The TRB makes a
recommendation to the Air Traffic Manager who has
the final decision to re-enter the ATCS-IT in the
training program or to terminate the ATCS-IT
training at that facility. If the facilities Air Traffic
Manager decides to terminate the ATCS-IT training
at the facility, the ATCS-IT will be assigned
administrative duties/days off/hours/ manager, and
not allowed to control air traffic on positions they were
certified on. The ATCS-IT training paperwork, with
recommendation letters from the trainers, is
submitted to the National Employee Services Team
("NEST"), who makes a determination if the employee
will be transferred to a lower level facility, or
separated from federal service.
After completing an initial training period, in
December 2009 Appellant reported to the Washington
Air Route Traffic Control Center in Leesburg, Virginia
("Washington Center"). In August 2012 Appellant had
numerous disagreements with an assigned On the job
instructor ("OJTI") who was a previous NATCA
representative. The OJTI used his persuasion as an
OJTI for the Appellant and with FAA management to

App. 82 a
create false documentation of training. FAA
management, when confronted with the allegations of
false documentation, refused to remove the om in
question. FAA Training Procedures require FAA
Management to correct circumstances that prevent
proper training, FAA Management refused. In
November 2012 Appellant has his training suspended
by FAA management. A TRB was conducted. The
Washington Center air traffic manager (length of
time as air traffic manager was less than 1 year)
reinstated Appellant into training with abnormally
restricted additional training hours and the same
supervisor. It is standard practice that the supervisor
is changed for the OJTI. The supervisor for the
Appellant in the period in question was apart of the
"Emerging Leaders" program where they are awarded
with fast promotions as long as the supervisor gets
positive remarks from their superiors.
FAA Management later suspended Appellant's
in February 2013. The TRB recommended
termination of training but highly suggested being
retained at a lower level facility. It is an unwritten
rule in the FAA that a person does not get additional
training after the 2nd training review board on the
same radar position. The air traffic manager (new air
traffic manager, length of time in position was about
1-2 months) implemented the TRB recommendation
via memo dated April 15 th, 2013 Subject
"Discontinuation of Training", received on April 16th,
2013.
Immediately
after
receiving
the

App. 83a
"Discontinuation of Training" memo on April 16th,
2013, Appellant was no longer allowed to perform
duties as an Air Traffic Control Specialist controlling
traffic, but assigned to the administrative schedule,
assigned to an administrative supervisor, and
assigned administrative duties pending placement
determination.
Since Appellant was subjected to the
procedures that occur when it is determined that an
ATCSTT training is terminated, Appellant only asked
for the air traffic managers assistance in being
retained with the FAA and remaining in the area near
his wife (who works at Washington Center). On April
23rd, 2013 the FAA's Employment procedures were
modified to require any ATCS-IT whose training was
terminated to the final decision of separation from
federal service or reassignment to a lower grade/pay
facility to be done at the national level by the NEST.
Appellant was offered reassignment 4 lower grade/pay
facilities or be separated from federal service. Since
the decision of Termination of Training was final the
Appellant would have been terminated (or separated)
from Federal Service per HRPM policy if he had not
selected one of the facilities offered to him for
reassignment. Effective December 1st, 2013 (JA 064)
Appellant was reassigned to Harrisburg Tower in
Middletown, MD. Appellant became a CPC at
Harrisburg Tower in 2015, and subsequently resigned
due to development delays of his child complicated by
this 3 hour round trip for his job. Appellant is

App. 84a
currently employed by a private contractor as an Air
Traffic Control Specialist at Frederick Tower in
Frederick Maryland.
ARGUMENT
A. Panel's opinion overlooked a material fact
that Termination of Training requires the employee's
removal from their current position.
The FAA's Technical Training program for Air
Traffic Controllers and the FAA's Personnel
Management System ("PMS") is unique in the
government civil service. The Congress even
exempted the FAA PMS from the MSPB in beginning
April 1, 1996- yet Congress reimplemented employees
of the FAA ability to appeal to the MSPB on April 5th,
2000 retroactive to March 31, 1996 in P.L. 106-181 §
307. Currently the FAA is exempted from most of
U.S.C. Title 5 Personnel Management System except
for a few Chapters. Notably 49 U.S.C. § 40122 (g) (2)
(H) reimplements 5 U.S.C. §§ 7701-7703 as it applies
to the MSPB, allowing the ability for FAA employees
to file an MSPB appeal.
This panel contradicted itself in its opinion
regarding the potential outcome(s) after a decision of
Termination of Training. "But if the ATCS does not
accept the reassignment, the FAA may 'initiate proper
separation activities,' id.,' i.e, propose the individual's
removal from federal service". Unpublished Opinion
at (I) (A) T|5. Yet in Unpublished Opinion at (I) (A) t 1
states "Pursuant to FAA policy, in order to remain

App. 85a
employed with the FAA as an air traffic controller, an
individual must satisfactorily complete the FAA's
training program, become a CPC, and obtain 'facility
or area certifications' at the facility to which the
individual is assigned. J.A. 130." This acknowledges
that the Panel understands after a decision of
Termination of Training, if the employee does not
accept the purported 'voluntary' reassignment, the
employee will be terminated from their position.
The FAA- not once- has shown that an employee
has remained in their exact position after a decision
to Terminate Training of an employee.
Once the FAA issues a final decision to
Terminate Training of an employee, that decision
follows the employee. If the employee does not choose
to accept the 'voluntary' reassignment, the final
decision of Termination of Training is held against the
employee during the Removal from Federal Service.
Is the employee able to 'rechallenge' the Termination
of Training, even though the employee was already
given his opportunity to respond?
Termination of Training is an action that is
directly based on the unacceptable performance of the
employee. The MSPB's Appellate jurisdiction for
actions based on unacceptable performance is directly
addressed in 5 U.S.C. § 7701 (c) (l) (A) "in the case of
an action based on unacceptable performance
described in section 4303... " which invokes
procedures in 5 U.S.C. § 4303.
If the employee takes no action after a decision

App. 86a
of Termination of Training, the employee will be
removed. So is Termination of Training the beginning
of Separation from Federal Service disguised to
portray an involuntary reassignment causing a
reduction of grade/pay as a seemingly voluntary
action? Appellant believes it.
This panel further misinterpreted Gaudette as
the issue in Gaudette was not if Termination of
Training was an adverse action, but if not giving them
Notification of Appeal Rights created an misinformed
decision. Gaudette filed a greivance for her
Termination of Training. A person can only do one of
two actions, either file a grievance, or file a MSPB
appeal, one can not do both. In Gaudette, the reason
the Federal Ciruit did not address it, as they did not
have jurisidiction due to Gaudette filing the
grievance. Furthermore the procedures the FAA uses
have been extensively modified and must be
readdressed due to this.
B. Panel relied on
description of 'dean slate'

Appellee's

incorrect

Appellee stated in Appellee's Brief that after
accepting a reassignment after Termination of
Training they are provided with a 'clean slate'.
Appellee is misleading this Court with that statement
is it is factually incorrect as discussed below.
A decision of Termination of Training follows
the employee as if they are having their Training
Terminated at the lower grade/pay facility, per the

App. 87a
HRPM 1.14a (JA 124) they are not allowed to be
offered a 'voluntary reassignment' if they have their
Training Terminated and the next facility. Only if the
employee attains CPC status at the lower grade/pay
facility, is when they attain a 'clean slate'. The 'clean
slate' means if the employee, after becoming CPC at
the lower grade/pay facility, transfer to a different
facility then has their Training Terminated the
employee can be again offered reassignment to a lower
grade/pay facility.
Appellee attempted to disguise the 'clean slate'
as it specifically describes how a decision of
Termination of Training is an adverse action that is
held against the employee until they attain CPC.
This panel improperly believes a person can rechallenge a Termination of Training determination if
the employee does not select from the reassignment
choices the FAA provides. Once due process is given
for a decision of Termination of Training, and a
decision made, does the employee get to re-challenge
it, or is Termination of Training apart of the Removal
Process.
C. Panel's opinion overlooked a material fact
that Appellant was immediately subjected to the
procedural actions of the proposal termination of
training before having the ability to respond.
FAA's procedures require an employee whose
training was terminated to be assigned to non-control
duties only. When on non-control duties, also called

App. 88a
administrative duty, the employee is required to work
an administrative schedule, and report to an
administrative supervisor. The procedure was not
contained in the Joint Appendix, but attached with
the Appellants Motion for Leave of Court to File Post
Argument Brief, Exhibit A.
Immediately after receiving the purported
proposal of Termination of Training memorandum on
April 16, 2013 (JA067), the Appellant was assigned to
non-control duties, assigned an administrative
schedule, and assigned an administrative supervisor.
Appellant, and any reasonable person would believe
the decision of Termination of Training was already
made, and the air traffic manager wanted the
Appellants comments on if he should be retained at a
lower grade/pay facility or be separated from Federal
Service. Subjecting Appellant to the procedural
actions of a final decison of Termination of Training
with still in the 'propsal' stage is highly prejudicial
and created misinformation that the Appellant relied
on when responding on April 24 th, 2013
Had Appellant been given a reasonable
opportunity to respond before believing his Training
was Terminated, Appellant's response would have
been brought up numerous issues, as Appellants
request did in his request for reconsideration on
August 7th, 2013 (JA105-13). The air traffic manager
after receiving the August 7th, 2013 verbally stated
request since Training Termination decision was
already made, there was nothing he could do. In

App. 89a
October of 2013 after Appellant requested a response
in writing to the August 7th request, the air traffic
manager responded on October 30, 2013 while a
substantive part of the response appeared to be an
attached addendum not on FAA letterhead. JA115-17
D. Panel's opinion is in conflict with multiple
Supreme Court decisions that requires the
government give an employee an opportunity to
respond before an adverse action is taken.
The Supreme Court and the Court of Appeals
for the Federal Circuit has specifically held that a
government employee shall have a pretermination
opportunity to respond. "We conclude that all the
process that is due is provided by a pretermination
opportunity to respond... " "Because respondents
allege in their complaints that they had no chance to
respond, the District Court erred in dismissing for
failure to state a claim." Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 1079, U.S. Supreme Court
(1985). Also quoted in Stone v. Federal Deposit
Insurance, 179 F.3d 1368, Federal Circuit (1999) and
Ward v. United States Postal Service, 634 F.3d 1274,
Federal Circuit (2011. At no time did the district court,
or this panel address the allegation that Appellant
had no chance to respond -before being subjected to the
procedural actions of Training Termination. The
Appellant believed the response was for the air traffic
manager's decision of separation or position chance,
not Termination of Training, since Appellant was

App. 90a
already subjected to the procedural actions.
The FAA's so called proposal letter, dated April
15, 2013 (received April 16), subject: "Discontinuation
of Training" was unconstitutionally vague as it is not
dear that it was a proposal. The word 'proposal' is
found only once in the whole document in the third
paragraph. Given the totality of the vagueness, and
being subjected to the procedural actions of training
termination, a reasonable person would assume their
training was terminated and they only wanted a
response if the air traffic manager would "reassign or
separate" the employee. JA 067.
E. Panel's opinion is in conflict with the
Supreme Court's decisions that require liberal
discretion when dealing with pro se litigants.
Being pro se, the court need not argue for the
pro se litigant or re- write their complaint, but be
liberally construed. It should not be unreasonable for
a court to directly address a technical nicety of an
otherwise meritorious claim. This would be easily
accomplished by an Order to Show Cause by the
district.
The Court of Appeals for the Federal Circuit
even noted that since Appellant did not waive his
discrimination claim that it should be heard in the
district. A discrimination claim was contained in the
MSPB.
F. Panel's opinion is in conflict with the
Supreme Court's and the Federal Circuit's opinions of
jurisdiction of MSPB mixed case claims without a

App. 91a
discrimination cause of action.
"The key to district court review is the employee's
'clai[m] that an agency action appealable to the MSPB
violates an antidiscrimination statute listed in
§ 7702(a)(1). ! !1 Perry v. Merit Systems Protection Bd.,
582 U.S.
_ (2017) at 9.
"In the CSRA, Congress created the
Merit Systems Protection Board (MSPB
or Board) to review certain serious
personnel actions against federal
employees. If an employee asserts rights
under the CSRA only, MSPB decisions,
all agree, are subject to judicial review
exclusively in the Federal Circuit.
§7703(b)(l).”
Perry v. Merit Systems Protection Bd., 582 U.S.
___(2017) at 17.
G. Panel's opinion lacked consideration of the
FAA's Termination of Training due process as it is
subjected on an average of 608 Federal Employees
every year and is a matter of exceptional importance.
As of July 2019 the FAA's Priority Placement
Tool (PPT) which gets data from the FAA's Staffing
Workbook (SWB) states the FAA currently has 3,708
ATCSTT, average training success is 80.6%, and an
average training time of 1.48 years across all FAA Air
Traffic Facilities. This means an average of 900 FAA

App. 92a
Employees will not be successful in training every
1.48 years, or on average 608 employees per year.
As stated above, an employee will be removed
from their position after a decision to Terminate
Training. The FAA has no evidence to the contrary.
Only after this decision is when the FAA offers
employee's whose training was terminated a lower
level facility. The panel must consider how voluntary
the action is in totality given it occurs after
Termination of Training. Appellant believes if this
were to be a completely voluntary action, in lieu of
Termination of Training, the voluntary transfer must
occur before a final decision of Termination of
Training.
Appellant also believes a standardized
procedure created by the FAA to turn an involuntary
action based on unacceptable performance into a
voluntary one after the final decision of Termination
of Training- which is based on unacceptable
performance in training- should also be evaluated for
its constitutionality of due process.

App. 93a
CONCLUSION
The panel should grant a rehearing of this
appeal and consider the arguments raised in this
Petition for Rehearing along with arguments raise in
Appellants Motion for Leave of Court to File Post Oral
Argument Brief.
Respectfully submitted,
/s/Thomas Sweeney
Thomas F. Sweeney
Appellant, pro se
DATED: July 26th, 2019
7083B Jasper Dr
Middletown,
MD
21769
804-457-8868
Thomas@reddn.com

App. 94a
CERTIFICATE OF COMPLIANCE
REQUIRED BY RULE 32(g)
Excluding Cover Page, Table of Contents, Table of
Authorities, Rule 32(g) Certificate of Compliance, and
Certificate of Service, this Petition for Rehearing
contains 3,835 words.

